<html>
<title> - ON THE BRINK OF HOMELESSNESS: HOW THE AFFORDABLE HOUSING CRISIS AND THE GENTRIFICATION OF AMERICA IS LEAVING FAMILIES VULNERABLE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                     ON THE BRINK OF HOMELESSNESS:

                   HOW THE AFFORDABLE HOUSING CRISIS

                   AND THE GENTRIFICATION OF AMERICA

                     IS LEAVING FAMILIES VULNERABLE

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 14, 2020

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 116-74
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          





                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
42-744 PDF            WASHINGTON : 2021                            
                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             ANN WAGNER, Missouri
GREGORY W. MEEKS, New York           PETER T. KING, New York
WM. LACY CLAY, Missouri              FRANK D. LUCAS, Oklahoma
DAVID SCOTT, Georgia                 BILL POSEY, Florida
AL GREEN, Texas                      BLAINE LUETKEMEYER, Missouri
EMANUEL CLEAVER, Missouri            BILL HUIZENGA, Michigan
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                SCOTT TIPTON, Colorado
JOYCE BEATTY, Ohio                   ROGER WILLIAMS, Texas
DENNY HECK, Washington               FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
RASHIDA TLAIB, Michigan              TED BUDD, North Carolina
KATIE PORTER, California             DAVID KUSTOFF, Tennessee
CINDY AXNE, Iowa                     TREY HOLLINGSWORTH, Indiana
SEAN CASTEN, Illinois                ANTHONY GONZALEZ, Ohio
AYANNA PRESSLEY, Massachusetts       JOHN ROSE, Tennessee
BEN McADAMS, Utah                    BRYAN STEIL, Wisconsin
ALEXANDRIA OCASIO-CORTEZ, New York   LANCE GOODEN, Texas
JENNIFER WEXTON, Virginia            DENVER RIGGLEMAN, Virginia
STEPHEN F. LYNCH, Massachusetts      WILLIAM TIMMONS, South Carolina
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
                   
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    January 14, 2020.............................................     1
Appendix:
    January 14, 2020.............................................    69

                               WITNESSES
                       Tuesday, January 14, 2020

Chapple, Karen, Professor, and Chair of the Department of City 
  and Regional Planning, University of California, Berkeley......     4
Desmond, Matthew, Maurice P. During Professor of Sociology, and 
  Director, The Eviction Lab, Princeton University...............     6
Hendrix, Michael, Director, State and Local Policy, Manhattan 
  Institute......................................................    10
Jayachandran, Priya, CEO and President, National Housing Trust 
  (NHT)..........................................................     8
Williams, Jeffrey, Tenant Advocate...............................     9

                                APPENDIX

Prepared statements:
    Chapple, Karen...............................................    70
    Desmond, Matthew.............................................    80
    Hendrix, Michael.............................................    86
    Jayachandran, Priya..........................................    90
    Williams, Jeffrey............................................    94

              Additional Material Submitted for the Record

Tlaib, Hon. Rashida:
    ProPublica article entitled, ``How a Tax Break to Help the 
      Poor Went to NBA Owner Dan Gilbert''.......................    98


                   ON THE BRINK OF HOMELESSNESS: HOW

                   THE AFFORDABLE HOUSING CRISIS AND

                    THE GENTRIFICATION OF AMERICA IS

                      LEAVING FAMILIES VULNERABLE

                              ----------                              


                       Tuesday, January 14, 2020

             U.S. House of Representatives,
                   Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2128, Rayburn House Office Building, Hon. Maxine Waters 
[chairwoman of the committee] presiding.
    Members present: Representatives Waters, Maloney, 
Velazquez, Sherman, Meeks, Scott, Green, Cleaver, Perlmutter, 
Himes, Foster, Beatty, Heck, Vargas, Gottheimer, Lawson, Tlaib, 
Porter, Axne, Casten, Pressley, McAdams, Ocasio-Cortez, Wexton, 
Lynch, Adams, Dean, Garcia of Illinois, Garcia of Texas, 
Phillips; McHenry, Wagner, Lucas, Posey, Luetkemeyer, Huizenga, 
Barr, Tipton, Williams, Hill, Emmer, Zeldin, Loudermilk, 
Mooney, Davidson, Budd, Kustoff, Hollingsworth, Gonzalez of 
Ohio, Rose, Steil, Riggleman, and Timmons.
    Chairwoman  Waters. The Committee on Financial Services 
will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time.
    Today's hearing is entitled, ``On the Brink of 
Homelessness: How the Affordable Housing Crisis and the 
Gentrification of America is Leaving Families Vulnerable.'' I 
now recognize myself for 5 minutes to give an opening 
statement.
    Good morning. Today, this committee convenes for its first 
hearing of the year to examine our country's rental housing 
crisis and how it is causing many Americans to live on the 
brink of homelessness. In 2019, homelessness increased by 2.7 
percent, resulting in almost 568,000 people experiencing 
homelessness. Areas with high rental costs, such as Los 
Angeles, have seen particularly high increases in homelessness. 
Los Angeles experienced a 16 percent jump in homelessness in 
2019 alone. Between 2010 and 2017, L.A.'s homeless population 
increased by 42 percent. While more than half-a-million people 
have no place to call home, there are millions more who are on 
the brink of experiencing homelessness because they can't 
afford to pay rent.
    According to the National Low Income Housing Coalition 
(NLIHC), more than 10 million low-income households are 
severely cost-burdened, meaning they spend more than 50 percent 
of their earnings on rent. These households are also twice as 
likely to fall behind on their rent and be threatened with 
eviction. Moreover, gentrification has exacerbated the rental 
housing crisis in some communities. For example, the City of 
Inglewood, located in my district, is experiencing 
gentrification created by recent commercial developments, 
including a new football stadium and entertainment district. As 
a result, long-time residents have seen their rents spike or 
have even been evicted to make way for newer, wealthier 
tenants. I have talked to these long-time residents and have 
heard how their lives have been turned upside down.
    I am deeply dismayed that despite these numbers, Congress 
has failed to prioritize this issue, and continues to underfund 
the very programs that would help people afford a roof over 
their heads. Not only are we failing to adequately invest in 
Federal programs to meet the needs of people who are currently 
experiencing homelessness, we are also failing to adequately 
invest in the solutions that can prevent homelessness in the 
future, such as the National Housing Trust Fund, which is 
dedicated to the development and preservation of housing that 
is affordable to the lowest-income households.
    Homelessness affects the very fabric of our communities. 
When I speak to families in my district who are dealing with 
homelessness, I see the toll this housing insecurity is taking 
on them, including their children who can't concentrate in 
school because they are sleeping in a car at night. Every 
American has the right to safe, decent, and affordable housing. 
That is why I am doing everything I can to get my bill, H.R. 
1856, the Ending Homelessness Act, passed into law.
    The Ending Homelessness Act would provide over $13 billion 
in new funding for vital programs that serve people 
experiencing homelessness and increase the supply of affordable 
housing for the lowest-income households. We need to do more if 
we are going to address the rental housing and homelessness 
crisis. We need to preserve the affordable housing that we 
have. We need to increase investments in programs that develop 
new housing or provide rental assistance. We know what the 
solutions are to this problem; we just need the political will 
and the resources. So, I look forward to hearing from the panel 
of witnesses whom we have here today.
    And with that, I now recognize the ranking member of the 
committee, the gentleman from North Carolina, Mr. McHenry, for 
5 minutes.
    Mr.  McHenry. Thank you, Chairwoman Waters. Thank you for 
holding this hearing, and thank you for this important 
discussion about housing affordability. For many people, 
housing affordability challenges are real. The economy is doing 
quite well. We see wages rising in every piece of our economy, 
and Americans are better off now because of the economic growth 
of the last few years, it is true. But too many low-income 
Americans find themselves one paycheck, one car accident, or 
one surprise bill away from losing their homes.
    According to the Harvard Joint Center for Housing Studies, 
about half of all renters in the country are considered cost-
burdened, meaning that they pay more than one-third of their 
income towards rent. While these affordability challenges exist 
in many places, the reality is that they are most acutely 
experienced in high-cost, high-taxed cities in dense urban 
areas. These high-cost cities and States are making this crisis 
worse, not better. Enacting counterproductive regulatory and 
zoning laws which decrease the amount of housing that can be 
built causes housing costs to skyrocket, and, ultimately, puts 
more low-income families at risk of being kicked out of their 
homes.
    Worse yet, these same high-cost cities and States are also 
responsible for a nationwide increase in homelessness, which 
has increased by 3 percent over the past year. This increase is 
being largely driven by high-cost, high-taxed States, 
specifically California and New York. But don't take my word 
for it. Last week, the Washington Post reported that, ``New 
York City is the area with the largest homelessness population, 
but Los Angeles, San Jose, and San Diego have the largest 
shares of the unsheltered population.'' That is from the 
Washington Post.
    The data show that California alone is responsible for 
almost half of the nation's unsheltered homeless population--
half. Moreover, when you look at a nationwide comparison of red 
States to blue States, the fact is that since 2007, blue States 
have not been able to reduce their homeless population at all, 
while red States have cut homelessness by about a third. I 
think that is an interesting statistic, and I think it is 
noteworthy for this discussion. In fact, the Post further 
reported that homelessness data show that, ``homelessness is, 
in fact, more prevalent in States that voted for Hillary 
Clinton in 2016,'' while, ``States that voted for Trump have 
seen larger drops in their homeless populations.'' Again, that 
is from the Washington Post. It is not an opinion story. It is 
a hard news story from the Washington Post.
    If we are going to have a discussion about it, we need to 
have the fullness of the data and the fullness of the answers 
to these very important questions about homelessness. I raise 
this because it is the Washington Post, not some right-wing 
blog, that is saying these things. So if you believe in data 
and the correlation of it, in this case, it is impossible to 
ignore that the States with the worst problems are also the 
States with the worst solutions. The reality is that if we want 
to address the high cost of housing, we need to enact policy 
changes to address the root cause of these local issues, the 
local problems, not just hope for a new Federal subsidy or 
temporary offsets in order to throw money at the problem.
    If we want to fight inequality, let's build more housing so 
that low-income Americans have the chance to live in high-
opportunity cities where they work. And if we care about 
combatting the climate crisis, let's build more and denser 
housing so people can live closer to where they work. People on 
both sides of this discussion want to make things better. That 
is important, and I think it is about time we propose some real 
solutions to these problems holistically.
    Back in 2016, President Obama said, ``If you keep on doing 
something over and over again for 50 years and it doesn't work, 
it might make sense to try something new.'' He wasn't talking 
specifically about housing there, but I think the quote makes a 
whole lot of sense. I don't want to be misunderstood. There 
will always be a portion of our population who has limitations 
to work, perhaps the elderly, or the disabled, or others, and 
it is important we have a social safety net for them. But we 
need to have a holistic response here, and we need to be open-
minded about this approach. And with that, I yield back the 
balance of my time.
    Chairwoman  Waters. Thank you very much. To the witnesses 
who are here today, I don't want you to get intimidated at all 
with these political arguments. This should be a nonpartisan 
issue. Homelessness is prevalent all over this country. I don't 
want to hear anything about red and blue, and I want you to 
tell us your experiences and help us in any way that you can.
    I want to welcome today's distinguished panel: Ms. Karen 
Chapple, a professor at the University of California, Berkeley, 
who is serving as Chair of Berkeley's Department of City and 
Regional Planning; Mr. Matthew Desmond, who is the Maurice P. 
During Professor of Sociology, and Director of The Eviction Lab 
at Princeton University; Ms. Priya Jayachandran, who is CEO of 
the National Housing Trust; Mr. Jeffrey Williams, who is a 
tenant advocate on the issues we will be discussing today; and 
Mr. Michael Hendrix, who is Director of State and Local Policy 
at the Manhattan Institute.
    Without objection, all of the witnesses' written statements 
will be made a part of the record, and each of you will have 5 
minutes to summarize your testimony. When you have 1 minute 
remaining, a yellow light will appear. At that time, I would 
ask you to wrap up your testimony so we can be respectful of 
both the witnesses' and the committee members' time.
    Professor Chapple, you are now recognized for 5 minutes to 
present your oral testimony.

    STATEMENT OF KAREN CHAPPLE, PROFESSOR, AND CHAIR OF THE 
    DEPARTMENT OF CITY AND REGIONAL PLANNING, UNIVERSITY OF 
                      CALIFORNIA, BERKELEY

    Ms.  Chapple. Chairwoman Waters, thank you for the 
opportunity to address the committee. I will focus on the role 
of gentrification in the housing affordability crisis and the 
potential for Federal policy to make a difference. I am a 
professor and the Chair of the Department of City and Regional 
Planning at the University of California, Berkeley, where I 
have worked for 19 years. I am also faculty director of the 
Urban Displacement Project.
    The loss of affordable rental housing occurs for many 
reasons, but, most importantly, income inequality. 
Gentrification plays a role, but it is not well-understood. 
Gentrification means that affluent and highly-educated 
newcomers, usually accompanied by new real estate investment, 
move into a low-income neighborhood, often a community of 
color. This disrupts the filtering-down process for housing. 
Instead, formerly affordable units filter up and there are 
fewer affordable apartments. Displacement doesn't happen 
immediately, but there is broad agreement among researchers 
that over time, low-income households are no longer able to 
find housing in these neighborhoods.
    Gentrification tends to attract a significant amount of 
media attention in places where it is rapid, like U Street in 
Washington, D.C. But as the Displacement Project has 
demonstrated, the affordability crisis has resulted in patterns 
of displacement that affect many different types of 
neighborhoods, not just these iconic examples. Residential 
displacement is a situation in which households are forced to 
move for any variety of reasons, not just rent increases, but 
also lack of repairs or even just landlord harassment.
    Displacement may occur not just during or after 
gentrification, but also before, when gentrification is nowhere 
in sight. In most cities across the country, gentrification 
occurs in just a handful of neighborhoods. Many more low-income 
neighborhoods are experiencing disinvestment; landlords 
disinvest in their property and displace tenants in order to 
make room for profitable reinvestment later. Because so many 
residents have already been displaced, if the Federal 
Government finally does arrive, there are few people left to be 
displaced.
    Our recent study of displacement in the greater New York 
region illustrates the different forms. About half of low-
income neighborhoods are gentrifying or might in the future, 
but the remainder are stable or are experiencing displacement 
without any sign of gentrification. Displacement is happening 
in upper-income neighborhoods, too. They are losing whatever 
diversity they ever had, and most of this is happening without 
an actual legal eviction filing. It has implications for fair 
housing in our cities as people are pushed out.
    The dysfunction of our rental housing market has 
contributed to the growth of precarious housing conditions. 
Certain types of buildings, like multifamily apartments, are 
particularly likely to change, and when this coincides with 
personal vulnerabilities--elderly folks, children, communities 
of color, low-income folks, medical conditions, et cetera--
housing stability is at risk. Precariousness can thus lead to 
homelessness. Precariousness exists in many different types of 
neighborhoods. If gentrification is in process, it can act as a 
shock. People with no buffer or safety net can end up on the 
street.
    I will mention some housing strategies and some other 
actions in areas like health and labor that are critical to 
address the crisis. We need emergency rental assistant and 
tenant counseling. I support the Eviction Crisis Act and the 
Family Stability and Opportunity Vouchers Act. Since it is 
expensive to build new housing, preservation of affordable 
housing stock is critical. HUD needs to preserve Project-Based 
Section 8 buildings, but we also need to innovate new 
approaches to scattered-site acquisition and rehab, like the 
Small Sites Program in San Francisco. New subsidized housing 
and new market rate housing will help mitigate displacement. We 
need to invest in the National Housing Trust.
    Two underbuilt housing types deserve more consideration: 
tiny homes for the homeless; and accessory dwelling units. 
There is an L.A. mosque experiment in Los Angeles, which is 
providing assistance to homeowners if they rent to voucher 
holders for 5 years. Opportunity Zones are often located in 
precarious communities undergoing gentrification, so we need to 
protect those residents. Eligibility for Opportunity Zone 
benefits should depend on the existence of tenant protections, 
housing preservation programs, or affordable housing 
production.
    Finally, HUD is exploring ideas for zoning reforms that 
will expand the supply of housing. We need to set up pilot 
programs here. In terms of healthcare, improved coverage, 
including Medicaid and services targeted to vulnerable 
populations in precarious housing, can help prevent 
homelessness. Affordability is as much an income crisis as it 
is a housing crisis. Raising the minimum wage to $15-an-hour by 
2025 is critical. This should be adjusted for local markets, 
exempting low-cost metropolitan areas and rural areas. And 
finally, we are going to have to develop better data sources if 
we are going to study and evaluate these programs.
    In concluding, Madam Chairwoman, I urge your committee to 
undertake a holistic and comprehensive approach to addressing 
the housing affordability crisis. Thank you for the opportunity 
to testify today.
    [The prepared statement of Professor Chapple can be found 
on page 70 of the appendix.]
    Chairwoman  Waters. Thank you, Professor Chapple. Professor 
Desmond, you are now recognized for 5 minutes to present your 
oral testimony.

 STATEMENT OF MATTHEW DESMOND, MAURICE P. DURING PROFESSOR OF 
    SOCIOLOGY, AND DIRECTOR OF THE EVICTION LAB, PRINCETON 
                           UNIVERSITY

    Mr.  Desmond. Chairwoman Waters, Ranking Member McHenry, 
and members of the committee, thank you so much for the 
opportunity to testify today.
    Many Americans are crushed by the high cost of housing 
these days. According to the latest data from the American 
Housing Survey, the majority of renters below the poverty line 
are now spending over half of their income on housing costs. 
One in 4 of those families are spending over 70 percent of 
their income just on rent and utilities.
    The affordable housing crisis is caused by 3 main factors. 
First, incomes for many American families have been stagnant 
for the last several decades. American productivity has more 
than doubled since 1980, yet according to a recent study, the 
bottom 90 percent of workers during this time saw annual 
earnings gains of only 15 percent.
    Second, as many Americans are watching their income 
stagnate, their housing costs are soaring. This is the second 
main cause of the crisis. Nationwide, median asking rents have 
more than doubled over the last 2 decades. Since 2000, median 
rent has increased by 72 percent in the Midwest, by 108 percent 
in the South, by 119 percent in the Northeast, and by 146 
percent in the West. Rents are rising at a much faster rate 
than incomes, yet Congress has not intervened to address this 
morally-urgent problem.
    And third, inadequate Federal funding for rental assistance 
is also driving the housing crisis. The vast majority of 
families who quality for housing assistance do not receive it. 
The average family spends 26 months on a waiting list for 
rental assistance, and in our largest cities, the wait list is 
no longer counted in years; it is counted in decades. I have 2 
young children. If I apply for public housing today in this 
City, Washington, D.C., chances are, I would be a grandfather 
by the time my application came up for review.
    Because of these factors, eviction, which used to be rare 
in the United States, has become commonplace. Between 2000 and 
2016, more than 61 million eviction cases were filed in the 
United States. In 2016 alone, 3.7 million cases were filed. 
This number far exceeds the 1.2 million completed foreclosures 
issued at the height of the foreclosure crisis in 2010. The 
problem is most acute in average-sized cities with average 
housing costs, places like Richmond, Virginia, where 1 in 9 
renter homes is evicted every year; or Tulsa, Oklahoma, where 1 
in 13 is evicted. Our research also shows that many small towns 
across the country have eviction rates that rival the biggest 
cities. Take Centreville, Illinois, population 5,012, which 
sees 1 in 9 renter homes evicted every year.
    The crisis is affecting families in every region of the 
country and in every type of town, large and small. Eviction 
causes loss. Children lose their schools. Families lose their 
homes and their neighborhoods. They often lose their 
possessions, which are piled on the sidewalk or discarded by 
property owners. Research shows that after getting evicted, 
families relocate to worse housing and to neighborhoods with 
higher levels of poverty and crime than they lived in before, 
largely because property owners view an eviction record as 
disqualifying. Public housing authorities also do so, which 
means we are systematically denying housing help to the 
families who need it the most.
    Studies show that eviction causes job loss, and then there 
is the effect that eviction has on your mental health. Research 
has linked eviction to depression, to drug overdose deaths, 
even to suicide. This body of research shows that eviction is 
not just a condition of poverty; it is a cause of poverty.
    The good news is that Federal policies aimed at promoting 
residential stability work. When families receive a housing 
voucher after years on the waiting list, when they finally 
receive the ticket that allows them to pay only 30 percent of 
their income on rent instead of 60 or 70 percent, research 
shows they do one consistent thing with their freed-up income: 
they take it to the grocery store. They buy more food, and 
their kids become healthier and stronger. When families receive 
a housing voucher, they move into better neighborhoods. Their 
kids do better in school. Recent research shows that families 
who grow up in public housing have better later-life outcomes 
than those who are left to struggle unassisted in the private 
market.
    Housing programs powerfully promote economic mobility, but 
the vast majority of our low-income renting families are denied 
this opportunity, and their kids are not getting enough to eat 
because the rent need is first. I applaud the efforts this 
committee has made to end homelessness and ease the housing 
burden for Americans. Last month, 2 bipartisan-sponsored bills 
were introduced in the Senate. The Eviction Crisis Act would go 
a long way to reducing unnecessary evictions, mitigating the 
harm of displacement and deepening our understanding of the 
problem. The Family Stability and Opportunity Vouchers Act 
would create 500,000 new housing vouchers for families who 
desperately need them, and improve services to increase housing 
in neighborhood choice. I urge this committee to work across 
party lines to generate complementary legislation in the House, 
acting decisively and quickly to address this crisis.
    [The prepared statement of Professor Desmond can be found 
on page 80 of the appendix.]
    Chairwoman  Waters. Thank you, Professor Desmond. Next, we 
will have Ms. Jayachandran. You are now recognized for 5 
minutes to present your oral testimony.

 STATEMENT OF PRIYA JAYACHANDRAN, CEO AND PRESIDENT, NATIONAL 
                      HOUSING TRUST (NHT)

    Ms.  Jayachandran. Good morning, Chairwoman Waters, Ranking 
Member McHenry, and distinguished members of the committee. 
Thank you for the opportunity to testify regarding how 
preservation may address the affordable housing crisis. I am 
Priya Jayachandran, CEO of National Housing Trust (NHT).
    NHT is a nonprofit dedicated to preserving, producing, and 
protecting affordable housing. Our mission broadly is to ensure 
that all U.S. residents have access to safe and secure homes by 
preserving and expanding the nation's affordable housing stock. 
Using the tools of policy advocacy and innovation, real estate 
development, lending, and energy solutions, NHT hopes to 
preserve and create more than 36,000 affordable homes in 50 
States, leveraging more than $1.2 billion in financing.
    Before I dive into the fact and figures, I would like to 
share a story. Meridian Manor is an historic building in the 
increasingly-gentrifying neighborhood of Columbia Heights here 
in Washington, D.C., less than 2 miles from here. In 1991, the 
residents of Meridian Manor won a judgment against their 
negligent landlord for housing code violations and illegal rent 
increases. Meridian Manor benefits from 100 percent project-
based vouchers, which enables its residents to pay only 30 
percent of their income on rent.
    NHT partnered with the Meridian Manor Resident Association 
in 2002 to acquire and renovate their building using Low-Income 
Housing Tax Credits. The residents retained a right of first 
refusal to purchase the property from the Housing Credit 
Limited Partnership after the end of the initial 15-year 
compliance period, which ended last year. Last month, the 
residents exercised that right. We at NHT will continue to work 
with the residents as a development consultant and as an asset 
manager as they assume full ownership.
    While many neighboring apartments are rapidly converting to 
high-cost condominiums, Federal subsidies, notably Project-
Based Vouchers and Low-Income Housing Tax Credits, have enabled 
the residents in Meridian Manor to remain in their home, in 
their neighborhood, by maintaining affordable rent, and now to 
own their building. We are very proud at NHT of our role in 
preserving the affordability of this historic building for 
families who will have the opportunity now to continue living 
there.
    Mr. Desmond, Ms. Chapple, and the members of the committee 
did a nice job of summarizing the data on the need for 
affordable housing, so I will focus on solutions. Affordable 
housing preservation can help. Preservation refers to a set of 
actions that ensure that an affordable property's rents remain 
affordable by extending and potentially expanding its housing 
subsidies and rent restrictions. Often accomplished by mission-
based developers committed to long-term affordability like NHT, 
preservation usually involves financial recapitalization and 
physical renovation of a property.
    In recent years, rising rents in hot markets, like D.C., 
have created increased incentives for owners to opt out of 
participating in Federal housing assistance, including Project-
Based Section 8. When properties become unaffordable at the 
same time neighborhoods improve, residents are often displaced, 
losing the opportunity to benefit from potential decreased 
crime rates, and enhanced access to jobs, quality schools, and 
reliable transportation. Preserving affordable housing enables 
residents to benefit from these opportunities. It also allows 
employers to fill critical jobs across the spectrum of wages 
without forcing the poorest workers to shoulder the burden of 
long and expensive commutes.
    In distressed neighborhoods, preserving affordable housing 
can catalyze the revitalization of an entire community. It also 
signals the reversal of what may have been years of neglect and 
can spark the public-private investment that is essential for 
community revitalization. Preservation protects the billions of 
taxpayer dollars already invested in affordable housing and 
results in more efficient use of resources.
    No one strategy alone can solve our affordable housing 
crisis, and preservation must be coupled with building new 
apartments and increasing tenant-based vouchers, among other 
strategies. Housing construction, particularly at affordable 
levels, has not kept pace with population growth and widening 
income inequality, nor have voucher allocations kept pace with 
the increase in renters who need them. However, focusing 
exclusively on new construction or vouchers without 
simultaneously promoting preservation risks exacerbating the 
problem. We must preserve existing homes, and focus our new 
construction and new tenant-based efforts on expanding supply 
without backfilling our losses.
    [The prepared statement of Ms. Jayachandran can be found on 
page 90 of the appendix.]
    Chairwoman  Waters. Thank you, Ms. Jayachandran. Mr. 
Williams, you are now recognized for 5 minutes to present your 
oral testimony.

         STATEMENT OF JEFFREY WILLIAMS, TENANT ADVOCATE

    Mr.  Williams. Good morning, Chairwoman Waters, Ranking 
Member McHenry, and members of the committee. Happy New Year. 
First, I want to thank everyone for taking time out to hear my 
family's story, so I will try to just keep it brief.
    My name is Jeffrey Williams. I am a father, a husband, and 
a tenant in Richmond, Virginia. My family is one of several 
American families who have experienced homelessness for several 
years. I was forced out by a legal eviction. I fell behind on 
my rent. It was taking 30 percent of my income, and we were 
forced out on the street. My son, who is now 11, was 9 then, 
and was forced out on the street with nowhere to go. At this 
point, I feel very compelled to tell you guys, and excuse me if 
I am not being correct, but it brings tear to my eyes to know 
that you guys are just giving me this opportunity to hear our 
story. But I will just move on.
    My family and I have been homeless for over 3 years. We 
have experienced it on all different levels, from being put out 
on the street, to staying in hotels, to being promised places 
only to find out that they didn't want to give us a chance. My 
son, who is here today, would be the first to tell you that it 
hurts. It hurts when your child looks at you, and they ask you, 
``Where is our next place, for a roof over our heads?'' They 
ask you, ``Dad, where will we live next?'' And I am ashamed 
because I don't know what we can do. My son one day asked me, 
and I will never forget it. He asked me, ``Dad--and, again, he 
was 9 at this point--can I help you work to put a roof over the 
family's head?''
    And at that point, I knew that something had to be done. 
When you do all you can as a father, as a husband, and as a 
provider, you feel like a failure. You feel like the weight of 
the world is on your shoulders. You feel like you have done a 
disservice to your family, and you just feel like you are a 
failure. But then to go further down the line and realize that 
there is no one to listen to you, no one is there to just 
understand that there is a bigger issue going on, it hurts, and 
it cuts deep.
    I am sure I am not going with everything on the paperwork, 
and I am trying to refrain from getting emotional, so I 
apologize. But this is something that is very, very near and 
dear to me because it hurts, and it hurts not only me and my 
family, but I am hurting for the next family who is going to go 
through this. And I ask everyone, when you go home tonight and 
you sit back and look at everything that is going on in the 
world, please look at the families that you pass every day on a 
daily basis, because everyone deserves a chance, everyone 
deserves an opportunity, and everyone deserves to have a roof 
over their head.
    Some people take that for granted, and if I could say to 
each and every one of you, tonight, when you go home to your 
loved ones, be thankful. Be thankful, because it was taken from 
me, and that is something that I will never ever forget. It is 
a feeling that will never leave. It is scary to know that at 
any given point, due to a little mistake or a lack of income, 
it all can be taken away from you. And I want you to all to 
know from the bottom of my heart, I really thank you all for 
hearing me, and I am here to listen to anybody.
    I brought my son here today, and I thank you for hearing my 
story this morning.
    [The prepared statement of Mr. Williams can be found on 
page 94 of the appendix.]
    Chairwoman  Waters. Thank you, Mr. Williams. Mr. Hendrix, 
you are now recognized for 5 minutes to present your testimony.

STATEMENT OF MICHAEL HENDRIX, DIRECTOR, STATE AND LOCAL POLICY, 
                      MANHATTAN INSTITUTE

    Mr.  Hendrix. Good morning, Chairwoman Waters, Ranking 
Member McHenry, and members of the committee. Thank you for 
inviting me to participate in this hearing. My name is Michael 
Hendrix, and I am the director of State and local policy at the 
Manhattan Institute, and, along with my colleagues, we seek to 
advance the flourishing of America's communities.
    My key message to the committee today is this: America must 
allow more housing supply where there is housing demand. Not 
doing so actively harms low-income and marginalized Americans. 
State and local governments must lower the regulatory barriers 
standing in the way of new and more affordable housing. And the 
Federal Government can play an important role in informing and 
incentivizing housing reform, because the reality is that 
America's housing is increasingly unaffordable. Roughly 25 
percent of renters nationwide spend more than half of their 
incomes on housing. In opportunity-rich Cities like San 
Francisco and New York, real housing prices have tripled and 
doubled since 1970, respectively. And the result is a crisis of 
affordable housing, and a growing fear of homelessness and 
displacement among many Americans and their families.
    Housing unaffordability is rooted in housing 
inaccessibility. Demand is outstripping supply for the 8th year 
in a row nationwide. For every 10 households formed from 2010 
to 2016, just 7 homes were built. And in a survey across 
American cities, it was found that it was illegal on 75 percent 
of residential land to build anything but a single-family home. 
The demand for housing is highest where housing regulations are 
the most stringent. The artificially high cost stemming from 
regulatory barriers such as onerous zoning regulations, 
discretionary reviews, impact fees, and one-size-fits-all 
affordability mandates means ultimately, scarcer homes at 
higher prices. And as a result, fewer Americans are moving to 
opportunity, and it is minorities, working families, and low-
income Americans, in particular, who have scarcer choices for 
where and how they live.
    Homelessness, as we know, is on the rise for the 3rd 
straight year, due in no small part to being poor in housing-
constrained markets, such as California. And in the face of 
high rents, an eviction notice too often compounds a long 
string of financial strains for many families.
    So, here are the solutions. Housing cannot be more 
affordable without becoming more available. We must together 
loosen the grip of restrictive housing polices that contribute 
to unaffordable housing, homelessness, and disparate 
opportunity in destabilized communities. America's lack of 
affordable housing has three answers: building more units; 
subdividing existing units; or subsidizing rents. And 
ultimately, only allowing more housing to be built in this 
country resembles anything like a long-term solution.
    Communities that accommodate both existing residents and 
newcomers are prioritizing in-placement rather than 
displacement. Communities should legalize housing of all types 
for every income level, including for those without housing in 
the first place, freeing up so-called missing middle housing in 
single-family neighborhoods, or allowing housing around transit 
hubs to represent low-hanging fruit for reform. And localities 
can ensure that this housing is improved simply, quickly, and 
clearly.
    Public-subsidized affordable housing is also too often slow 
and costly to build, not just because of government 
inefficiencies, but because they face the same exclusionary 
land-use policies that contribute to costly market rehousing. 
Affordable housing can cost upwards of $739,000 in California 
per unit, and that is why also naturally-affordable housing is 
an important source of homes for millions of Americans and a 
critical part to the crisis of housing we face. That includes 
backyard apartments, manufactured homes, and roommates sharing 
a living space. States such as California should be applauded 
for removing barriers to the development of accessory dwelling 
units in backyards.
    Now, freer markets may not immediately lead to more 
economical housing, and that is why well-funded housing 
subsidies provided directly to recipients are important for 
providing below-market rate shelter in a timelier fashion, 
while still offering flexibility and avoiding entrenching 
people in pockets of poverty and segregation. Now, more funding 
for vouchers and housing assistance, if allowed, must still at 
some point be paired with more housing down the road. 
Otherwise, subsidized demand will just lead to higher prices 
for everyone.
    The Federal Government can also play an important role in 
forming and incentivizing housing reform. For instance, HUD has 
the authority to set clearly-defined and simple metrics, 
scoring communities and housing availability and affordability 
in order for mayors to compete for Federal dollars and prestige 
for a race to the top. Now is the time for more Americans to 
stand up for housing growth, including those who are entrusted 
with a Federal office. These barriers exist for public and 
private sectors alike, and together, we can help America's 
housing markets to be both free and fair. Thank you.
    [The prepared statement of Mr. Hendrix can be found on page 
86 of the appendix.]
    Chairwoman  Waters. Thank you very much. I will now 
recognize myself for 5 minutes for questions.
    Mr. Williams, I want to thank you for coming here and 
sharing your story with us. I want to thank you additionally 
for bringing your child with you so that your child could see 
the Members of Congress, and understand that we are public 
policymakers and we have a role in solving these problems, and 
I am certainly hopeful that he will know as he grows up what to 
expect from his elected officials. How many children do you 
have?
    Mr.  Williams. I have 3 children.
    Chairwoman  Waters. You have 3 children?
    Mr.  Williams. Yes, ma'am.
    Chairwoman  Waters. And when you were evicted, were you 
employed?
    Mr.  Williams. Yes, ma'am.
    Chairwoman  Waters. What kind of job did you have?
    Mr.  Williams. I was a criminal justice major. I do 
security, government security. Yes, ma'am.
    Chairwoman  Waters. Would you mind sharing with us--you 
don't have to--what your income was at that time?
    Mr.  Williams. At that time, I was making $10 an hour.
    Chairwoman  Waters. How much?
    Mr.  Williams. Ten dollars an hour.
    Chairwoman  Waters. Ten dollars an hour, with 3 children--
    Mr.  Williams. Yes, ma'am.
    Chairwoman  Waters. --working as a security guard.
    Mr.  Williams. Yes, ma'am.
    Chairwoman  Waters. I am told by one of my staff that you 
were also trying to improve your income by going to school or 
doing something to improve your education. Is that right?
    Mr.  Williams. Yes, ma'am.
    Chairwoman  Waters. What were you doing?
    Mr.  Williams. I was doing security for public schools.
    Chairwoman  Waters. And you were trying to increase your 
income?
    Mr.  Williams. Yes, ma'am.
    Chairwoman  Waters. And did you have any help with anybody 
paying for your education?
    Mr.  Williams. No. No, ma'am.
    Chairwoman  Waters. So, you were paying for your education?
    Mr.  Williams. Yes, ma'am.
    Chairwoman  Waters. And you were making minimum wage?
    Mr.  Williams. Yes, ma'am.
    Chairwoman  Waters. Three children, trying to improve your 
education, and you were paying for your education, and you 
missed a month or so on your rent.
    Mr.  Williams. Yes, ma'am.
    Chairwoman  Waters. And you were evicted.
    Mr.  Williams. Yes, ma'am.
    Chairwoman  Waters. Do you know who your landlord was, was 
it a private landlord?
    Mr.  Williams. It was a private landlord.
    Chairwoman  Waters. And did they put you and the kids out 
on the street?
    Mr.  Williams. I will never forget it, ma'am. The day of 
the eviction, the sheriff's department came first thing in the 
morning. My kids were getting ready for school, and the 
sheriff's department told us that we had less than 30 minutes 
to pack up our 3-bedroom apartment and get out. The sheriff's 
department at that time told us we could only take what we 
could get, and then, they would lock us out. At that time, all 
of my kids had chronic asthma, and I was only able to grab a 
few items. Some near-and-dear items did not come with us. We 
were put out on the street.
    Chairwoman  Waters. And as I understand it, as hard as you 
tried to find a place, the eviction now interfered with your 
ability to even find a place, that even if you could have found 
a place with the meager income that you had, the eviction would 
always come up?
    Mr.  Williams. Yes.
    Chairwoman  Waters. And they would say, ``Sorry, we can't 
rent to you.'' Is that right?
    Mr.  Williams. Yes, ma'am.
    Chairwoman  Waters. So here you were with limited income 
and an eviction, with 3 kids, on the street, and nowhere to go. 
And for a period of time--1 or 2 or 3 years, I don't know how 
long it was--you were going from motel to motel to your car.
    Mr.  Williams. To my car. One particular time, we were 
staying in the car for about 3 weeks.
    Chairwoman  Waters. And how did the children get to school 
when you were sleeping in the car?
    Mr.  Williams. We would still take them to school.
    Chairwoman  Waters. You are describing to us a situation 
where literally, it was not your fault, and it was not the 
fault of a Democrat or a Republican; it was the fact that we 
have low income and stagnant wages, oftentimes. When you are 
trying to improve yourself, oftentimes, there is no one helping 
to pay for the education. But then, there is no low-income 
housing that you could have gotten on that income, is that 
right?
    Mr.  Williams. Yes, ma'am. On several occasions, in 
approximately 3 years, we probably lost about $2,000 to $3,000 
just in application fees because we were told at the initial 
interview after being forthcoming with all our information, oh, 
you qualify for this, you qualify for that, only to be told a 
day or two later, you don't qualify. So, every application fee 
that we have put in has been denied.
    Chairwoman  Waters. Wow. Well, I want to thank the people 
who helped you--and I don't even know who those people are--to 
get into a place recently. I want to thank them from the bottom 
of my heart, and I want your son to know that there are some 
people here who are going to fight for you, and fight for 
families like yours. With that, I yield back the balance of my 
time, and I yield to Mr. McHenry, the ranking member.
    Mr.  McHenry. Mr. Williams, what is your son's name, who is 
with you?
    Mr.  Williams. If he is awake--
    [laughter]
    Mr.  Williams. Jaylen Williams.
    Mr.  McHenry. Jaylen.
    Mr.  Williams. Maybe he is not awake yet.
    [laughter]
    Mr.  McHenry. Jaylen, you have a great dad. You have a 
brave dad. You have a dad who is full of courage. For him to 
tell this story in front of us, to tell this story in front of 
you, he is going to make you proud, and you should be proud of 
your dad. We are sorry for what you have been through. We want 
to make things better. That is the struggle, is how to make 
things better, and you are our constituents. You represent the 
voice of our constituents, so a job that pays better, a 
sustainable housing situation. You have housing now?
    Mr.  Williams. Yes, sir.
    Mr.  McHenry. Is that private housing or is it public 
vouchers?
    Mr.  Williams. Private housing.
    Mr.  McHenry. Okay. Is there a voucher involved?
    Mr.  Williams. No, sir.
    Mr.  McHenry. Okay. So, you are doing it on your own?
    Mr.  Williams. Yes, sir.
    Mr.  McHenry. Paying it out of your pocket. Where do you 
live, in Richmond?
    Mr.  Williams. Richmond, Virginia.
    Mr.  McHenry. Richmond. Richmond is not on our list of the 
highest-cost places, not that it is cheap, but it is not one of 
the highest-cost places. And you are doing it in market rent, 
paying out of your pocket, with no help from the government?
    Mr.  Williams. No help.
    Mr.  McHenry. Okay. Mr. Hendrix, how do you solve that 
problem? How does he get more affordable housing, in fact, so 
he has more choices, so that if he gets a ``no'' from one, he 
can get a ``yes'' from another? How do you get more affordable 
options?
    Mr.  Hendrix. We start with reforms at the local level, 
from zoning laws, to permitting fees, to extensive review 
times. We also have a greater variety of housing stock, so it 
is not just a single-family home that you have to choose from. 
You can have housing of every type for every income level. 
Unfortunately, too much of that housing variety has been made 
illegal in this country, and we need to make it legal.
    Mr.  McHenry. What do you mean by that?
    Mr.  Hendrix. Right now, for instance, on zoning, you can 
only build certain types of homes in certain places. And what 
you build maybe has to be a certain size, or it has to be of a 
certain limit on the height, and that hurts way too many places 
where there is a lot of demand. That is especially true on 
America's coasts. I happen to live in Manhattan. It is not 
cheap in Manhattan. It is also not cheap in California. And 
even places in America's interior--places like Dallas, Austin, 
Atlanta--are becoming much more expensive, too, as more people 
want to be closer to jobs, which everyone wants.
    Mr.  McHenry. Okay. So zoning is boring, and this is 
Congress. We want to do something exciting, right? We want to 
spend some money. That is sort of the motivation. How do you 
actually make the money more effective that we are spending so 
it actually has an impact?
    Mr.  Hendrix. When money is being spent, my belief is that 
it should be sent directly to an individual. When you subsidize 
apartments, when you subsidize buildings, that is a very 
inefficient way to make housing much more affordable. Putting 
money directly in the hands of individuals gives them the 
freedom and the flexibility to live where they want to. But, 
again, we must make it more affordable for more housing to be 
built, and whether that is exciting or not, it is necessary.
    Mr.  McHenry. Okay. But a subsidy is a temporary piece, and 
doesn't a subsidy then drive up the cost of the housing stock? 
How do you--
    Mr.  Hendrix. Absent more housing development.
    Mr.  McHenry. How do we connect Federal monies flowing to 
individuals that enhances the housing stock? How do we actually 
make that happen as a matter of policy so we actually affect 
people's lives?
    Mr.  Hendrix. Sending money directly to individuals, you 
are correct, does not increase the housing stock. That has to 
be a change at the local and State levels because you can have 
money in your pocket, but if you have no place to spend it, it 
does you no good.
    Mr.  Hendrix. Okay. So give us an example of a bad piece of 
regulation that we can have an impact on, that would make a 
meaningful impact on the cost?
    Mr.  Hendrix. Yes, I will point to an example from 
California, in San Diego. Mayor Kevin Faulconer has gotten rid 
of minimum parking requirements, which added from $15,000 to 
sometimes even $100,000 across southern California, to the cost 
of a single unit's development. Getting rid of that minimum 
parking requirement, especially near transit, was a critical 
part of making San Diego's housing much more affordable. Even 
more recently, he passed a law saying, yes, in God's backyard, 
there are churches that wanted to build housing on parking lots 
that sat vacant through much of the week. That kind of low-
hanging fruit, retail spots, allowing for backyard apartments 
to be built, that is concrete reform that--
    Mr.  McHenry. And that actually has an impact on housing 
choices for somebody like Mr. Williams--
    Mr.  Hendrix. That is right.
    Mr.  McHenry. --who doesn't have a government subsidy for 
this.
    Mr.  Hendrix. That is right.
    Mr.  McHenry. Okay. Thank you.
    Chairwoman  Waters. The gentleman from Georgia, Mr. Scott, 
is recognized for 5 minutes.
    Mr.  Scott. Thank you very much. This is an extraordinary 
hearing, but I do want to make a couple of points starting out. 
First, this is an issue that is going to require a massive 
infusion of financial resources, and that is the one major 
thing that Chairwoman Waters has in her bill. It is going to 
take at least $13 billion, then we know we are serious. Second, 
private investors can't do this alone, without the help of 
Federal financial resources. That will be incorporated in her 
bill, but also in the Community Development Block Grant (CDBG).
    So we, on both sides of the aisle, need to have what I 
affectionately refer to as a serious, come-to-Jesus moment. The 
tears, the emotion that this young man has expressed says it 
all, and I hope that every single one of us will stop this 
business about blue States and red States. We are all American 
States, and the American people are crying out and saying, 
``Congress, get your act together and let's solve this 
problem.''
    But let me just ask you, if I may, a few weeks ago in one 
of my beloved counties, Fulton County in Georgia, my district 
voted, unfortunately in my opinion, to no longer be categorized 
as a CDBG entitlement community, meaning that they will no 
longer directly receive CDBG funding that could have been 
deployed into affordable housing or public works. I was deeply 
concerned to hear about this change, as it will 
disproportionately impact several of the small cities in the 
southern part of Fulton County in my district, and it would 
restrict their access to desperately-needed Federal dollars.
    Ms. Chapple, and Ms. Jayachandran, I would like for you two 
to weigh in and give us a little help, if you can describe the 
role that the CDBG Program will play in combatting homelessness 
and providing affordable housing stock, and how would a sudden 
decrease of the loss of this CDBG funding impact a community 
like Fulton County in my district in Georgia, their ability to 
provide needed services and the money? How serious is this 
problem? Yes, go ahead?
    Ms.  Chapple. Thank you for your question. CDBG funding is 
critical for communities around the country because it provides 
flexible funds that can be used for a number of different uses 
to stabilize communities, to stabilize renters. In California 
right now, in Alameda County, we are using CDBG funds to help 
build tiny homes for the homeless. So, this is a really needed 
funding stream to augment other sources to match.
    Mr.  Scott. So what you are saying is that this could be 
something that our administration in Fulton County might want 
to take a second look at, because it will affect them? Am I 
right, Ms. Jayachandran?
    Ms.  Jayachandran. You are correct.
    Mr.  Scott. Good.
    Ms.  Jayachandran. CDBG has been one of the strongest 
sources of support for creating new supply and for preserving 
affordable housing. We at NHT have used it as a source of funds 
as we preserve affordable housing, as one of the capital 
sources in the stack of financing.
    Mr.  Scott. Okay. Thank you very much. And, Madam 
Chairwoman, one final point is that we in the Federal 
Government made a tragic error. As you recall, there was this 
massive movement of going throughout the country tearing down 
public housing.
    Chairwoman  Waters. Yes, you are absolutely correct.
    Mr.  Scott. And this is a mistake that we have to correct. 
Again, I want to commend you on the leadership that you are 
providing, and this $13 billion is going to go a long way to 
helping us. Thank you.
    Chairwoman  Waters. Thank you very much. The gentlewoman 
from Missouri, Mrs. Wagner, is recognized for 5 minutes.
    Mrs.  Wagner. Thank you, Madam Chairwoman, and I want to 
thank all of our witnesses for taking the time to come before 
this committee to testify on an issue that impacts every single 
congressional district in this country. And I thank you, 
especially, Mr. Williams, for your courage in sharing your 
story, and being here today to give your testimony.
    While this hearing is designed to put a spotlight on the 
millions of Americans who are at risk of eviction due to a lack 
of affordable units, simply authorizing more funding--as has 
been exhibited and already discussed here briefly--for these 
programs is not the only solution. Although HUD's programs were 
designed to help address the effects of unaffordability at the 
local level, at the Federal level they do not and are not meant 
to address the underlying causes of the housing crisis and 
affordability. The causes of those problems--regulations, and 
increasing the cost of the supply of housing units, and 
decreased access to economic opportunity--are inherently local 
decisions that no amount of Federal assistance will ever be 
able to surmount.
    That is why I would urge my colleagues, all of us here 
today across the aisle, on both sides, to co-sponsor 
Representative Virginia Foxx's bill, H.R. 4956, the Finding 
Market-Based and Local Solutions to Ensure Access to Housing 
Act, again, H.R. 4956. I would like you all to take a look at 
it. This bill codifies President Trump's Executive Order 
establishing a White House council on eliminating regulatory 
barriers to affordable housing. The order recognizes that 
multiple factors contribute to the affordable housing shortages 
across the country, and State and local governments are in the 
best position to reduce barriers to affordable housing.
    Mr. Hendrix, in your experience, do you believe that there 
are local regulatory barriers that are driving out investment 
and driving up unaffordability in the housing market? And do 
you have any specific examples, sir, of these barriers in any 
States?
    Mr.  Hendrix. Unfortunately, there are far too many States 
where local regulatory barriers are standing in the way of more 
housing being built. I think that the coastal States are often 
the most egregious examples, but those are also the places 
where we see the most opportunity for reform or where we are 
actually seeing reforms, places that are up-zoning their cities 
and up-zoning their States. We have seen that in California. We 
have seen that in Oregon. And we are even seeing progress in 
Massachusetts as well with Governor Charlie Baker. That kind of 
progress is something that we can't nationalize. We don't know 
what happens in each and every corner.
    Mrs.  Wagner. Right.
    Mr.  Hendrix. There is no one-size-fits-all solution to 
reforming our housing markets. But the localities do know best, 
and they also know that housing markets differ from place to 
place. So what works perhaps for San Francisco may work very 
differently for San Angelo, and we need to be reinforcing that 
and sharing information between localities so they can learn 
best practices for reform.
    Mrs.  Wagner. You referenced zoning earlier. What changes 
would you propose to the local zoning and regulatory structure 
to promote affordability and availability of housing at all 
income sectors of the community?
    Mr.  Hendrix. Because every locality is different, and 
every State is different, it may look different, but it starts 
with incremental progress, taking neighborhoods where there is 
demand for more than just single-family homes and making it 
easier to build duplexes, triplexes, and backyard apartments, 
again, where there is demand. This is not about demolishing 
what needn't be demolished. This is about saying if there is 
demand, if people are demanding to live in a certain 
neighborhood and there is no supply to meet that demand, we 
should free up that supply.
    Mrs.  Wagner. Localities across the country are trying to 
address affordable housing by implementing something called 
rent control. New York recently passed one of the most 
comprehensive laws we have ever seen in this country. 
Economists of all stripes agree that rent control can be very 
counterproductive. Mr. Hendrix, in the brief amount of time 
that I have left, what can be done to make housing more 
affordable and to stop the failed policies, like rent control, 
from being implemented?
    Mr.  Hendrix. Rent control comes from a real desire to 
address housing needs. But as a Swedish socialist economist 
said, the only thing more destructive to a city than bombing is 
rent control, and I think we have seen that over time, and it 
often is most harmful to future renters and newcomers. That is 
where the cost is transferred, and we need to be able to have 
housing for migrants and immigrants, for people of all 
backgrounds to come in. And rent control is not the solution.
    Mrs.  Wagner. My time has expired. Thank you all for your 
testimony. I yield back.
    Chairwoman  Waters. The gentleman from Missouri, Mr. 
Cleaver, who is also the Chair of our Subcommittee on National 
Security, International Development and Monetary Policy, is 
recognized for 5 minutes.
    Mr.  Cleaver. Thank you, Madam Chairwoman, and this hearing 
is consistent with your championing of affordable housing.
    Mr. Hendrix, you were saying that zoning would be a part of 
the solution. I was the mayor of the largest city in Missouri, 
and before that I was on the city council, the Chair of the 
zoning committee, and I am trying to figure out what you are 
talking about.
    Can you explain it a little more?
    Mr.  Hendrix. Sure. Of course. Zoning is essentially land-
use policy. It tells you what you can build, where, and how, 
and as you know, perhaps better than anyone, when you say this 
is zoned only for a single-family home, and you say you can 
only build with a certain kind of setback, you can only build 
on a certain kind of plot of land, that dictates the shape of 
our cities and where we can live.
    And often it is, as I said, illegal to build anything but a 
single-family home, which means that if you are low income and 
you need an apartment to rent, sometimes that is impossible to 
find because it is illegal to build.
    Mr.  Cleaver. Okay. You know, Houston doesn't have any 
zoning. It is the biggest mess in America and, first of all, I 
still don't understand how you are going to solve this with 
zoning.
    I missed it. Because you can't go in and zone--this is 
zones for low-income housing. Is that what you are talking 
about?
    Mr.  Hendrix. I am saying that if there is a demand for 
apartments, we should be able to build apartments where there 
is demand for it, and making incremental progress doesn't 
necessarily mean getting rid of zoning altogether, it means 
making zoning more flexible and freer.
    Mr.  Cleaver. Well, in the urban core of just about every 
major city, there is zoning for apartments. It already exists 
in any city we represent. For apartments, it is there.
    Now, if you try to live in Mission Hills, which is in 
Johnson County, the fifth richest county in the country, you 
can't build it there.
    But if you come into the urban core, you can build 
apartments. So I don't want to be argumentative, but I am right 
about this.
    And the other issue that I need to understand is, I live in 
the Methodist Building across the street, next door to the 
Supreme Court. I pay $2,000 a month and it is rent-controlled.
    When I first lived there, when I first came to Congress--
some time back now--it was racially integrated. My wife was up 
here in September, and we walked to the Eastern Market, and we 
started trying to count Black people and Mexicans. You know, 
``There is one.'' Because they are gone.
    I don't know where, because this--if you go into the areas 
where the poor people live, that price is going up, the cost of 
housing. It costs $200,000 to build a house in Kansas City, 
Missouri.
    You tell me a poor person who can afford to move into a 
$200,000 house. Can you help me?
    Mr. Williams can't. On $10 an hour, $400 a week, he can't 
afford to live there. We cut off money--if you are going to 
build low-income housing, even if you use tax credits, you are 
going to have difficulty getting somebody poor to move in.
    Mr. Williams can't move in even if you get a subsidy in 
building it. And it is not just in the urban core. I am in the 
process of building houses there in Marshall with the help of 
the Governor from our State.
    But in Marshall, Missouri, with 12,000 people, we are 
having difficulty building housing that is affordable. The 
problem is affordable housing, and the government has retreated 
because we started discontinuing tax credits. We did increase 
CDBG. We stopped the program called Urban Development Action 
Grants (UDAG).
    We are not being helpful, and I was hoping that I could get 
some help. I have to pay $2,000 a month, and I am a Methodist 
pastor, so I thought I could get it for free.
    But they said it was an ethical problem. I guess they are 
afraid they are allowing me to pray.
    Thank you, Madam Chairwoman.
    Chairwoman  Waters. Thank you.
    The gentleman from Florida, Mr. Posey, is recognized for 5 
minutes.
    Mr.  Posey. Thank you, Madam Chairwoman.
    Clearly, it has been established that regulatory burdens 
and land-use restrictions drive up the cost of housing. It has 
been made pretty clear in every hearing I think that we have 
had so far, and home building technologies are also key to 
holding down the cost of housing, especially multifamily 
housing. Modular buildings are a particularly promising 
alternative to help reduce housing costs in the future.
    Madam Chairwoman, we have relied on demand-side housing 
policy since the 1960s, and no doubt, some families need 
assistance. But we sorely need a supply side in our arsenal to 
fight against homelessness and the housing crisis.
    Recent evidence was provided by Fannie Mae in a September 
2019 research report entitled, ``Multifamily Market 
Commentary,'' dated September 2019.
    This article underscores the role of increasing housing 
costs, regulations, and rapidly rising land costs as problems 
that we need to consider, and I ask unanimous consent to enter 
that paper into the record.
    Chairwoman  Waters. Without objection, it is so ordered.
    Mr.  Posey. Thank you.
    Unless we address the supply-side issue to hold or bring 
down housing costs, our demand-side efforts can be expected to 
do little more than ratify continued rent increases both for 
new housing and for existing housing.
    And so, Mr. Hendrix, you authored a great article in the 
National Review entitled, ``Modular Housing is Affordable 
Housing,'' that lays out a case for modular housing.
    Could you please tell us how modular housing can contribute 
to addressing the housing crisis and homelessness, and what the 
committee can do to incentivize these contributions?
    Mr.  Hendrix. Thank you.
    Modular housing is basically applying the same technologies 
that we use to build automobiles in factories to building 
housing.
    We have not improved our productivity in housing in 
multiple generations, since the Industrial Revolution.
    So, being able to build housing in a factory, being able to 
do it quickly and efficiently for more people, can be one tool 
to dramatically lower construction costs, which is a large 
part, along with regulatory costs, of why housing is so 
expensive.
    We ask why housing could be $200,000 in Kansas City, and 
could be a million dollars in Boulder, Colorado, where I just 
was, the median home price. That is because of regulation, but 
it is also because of construction costs, and construction 
costs, in turn, reflect the lack of labor to build housing.
    Modular housing should be made much easier to build. 
Unfortunately, again, because of standards on, say, 
environmental review and the difficulties in moving modular 
units, which are, basically, like Lego blocks to build houses, 
on site.
    Again, those are regulatory barriers. It is often hard to 
build most modular housing in most communities and it can't be 
built farther away than a quick drive down the street.
    I think that is a real barrier that States and localities 
need to be looking at, because it is often State and local 
barriers that exist for modular housing that we need to look 
at.
    Mr.  Posey. Thank you.
    Your City Journal article, ``YIMBY, Please,'' outlined some 
efforts cities are taking on a bipartisan basis to break down 
land use and zoning barriers that generally impede the 
construction of multifamily housing.
    A recent newspaper article points out that the State of 
California is considering reintroduction of Senate Bill 50 to 
force municipalities to ease zoning restrictions.
    Could you please share with us some of your findings, and 
address how this committee could encourage efforts to bring 
down rents without violating the constitutional Fifth 
Amendment?
    Mr.  Hendrix. Right. Localities are creatures of the State, 
and more often than not, it is best for local land-use 
decisions to be made locally.
    But in California, there is a housing crisis, and we are 
often seeing bipartisan solutions to that crisis. Democrat 
State Senator Scott Wiener is proposing ideas for allowing more 
flexibility for localities to site dense housing near high-
frequency transit stops and near job centers.
    Again, that does not force housing. It just simply says, 
where there is demand near transit, can we build it in a more 
environmentally friendly way, can we do it such that it is much 
easier, especially for low-income workers, to be able to get to 
job centers? We need to have that freedom and flexibility.
    And it is not just in California or, say, Minneapolis, 
which is also a Democratic City. We are also seeing North 
Carolina and Texas making it much easier to get permits across 
the line.
    I think we need that kind of bipartisan support at the 
State and local level.
    Mr.  Posey. I thank you very much. I see my time has 
expired. I yield back.
    Chairwoman  Waters. Thank you.
    The gentleman from Colorado, Mr. Perlmutter, is recognized 
for 5 minutes.
    Mr.  Perlmutter. Thanks, Madam Chairwoman, and thank you to 
the panelists today for your testimony.
    Last summer--maybe it was two summers ago--I was out 
walking a precinct in my district in an area that has 10 units, 
15 units, 20 units, and I went to a woman's door.She was crying 
when I got there, and she said, ``My rent keeps going up, about 
$100 every 6 months and I can't--she was an older woman--afford 
this anymore, and I don't know where I am going to go.
    She was on a fixed income. We tried to figure it out. We 
don't have rent controls in Colorado.
    The market will be what the market is, and I will get to 
Mr. Hendrix and we will talk about ideology and the 
intellectual approach that the Manhattan Institute takes to 
real people's lives and housing.
    But I would like to ask a question, because we have had a 
strong real estate market in Colorado and you go through zoning 
hearings and people fight whether they are going to go for 
rezoning or not go for rezoning.
    Ms. Jayachandran, in your testimony you discussed the 
challenge of preserving affordable housing in a hot real estate 
market. We have seen this in the Denver area. How can this be 
addressed?
    Ms.  Jayachandran. There are several ways that it can be 
addressed, most of which require investment at the Federal, 
State, and local level.
    At the Federal level, subsidies such as Project-Based 
Section 8, and investments in CDBG and HOME can help preserve 
those affordable housing assets.
    Contracts like Project-Based Section 8 rental assistance 
allow an owner to take on debt and equity that can be infused 
in the property to renovate and then preserve and extend its 
affordability.
    Resources like CDBG and HOME are capital subsidies that can 
help renovate the properties and preserve them for the long 
term. And these are all older programs. We also need new 
solutions for today's affordable housing preservation.
    What a lot of people don't realize is that Project-Based 
Section 8 was repealed in 1983. We are 20 years into the 21st 
Century, and it has been almost 40 years since we have had a 
new rental assistance program.
    The appropriations, the approximately $11 billion of 
appropriations that Congress appropriates for Project-Based 
Section 8 is just renewing contracts that for the most part 
were created before 1983 or moved over from public housing. We 
need new subsidy solutions.
    Mr.  Perlmutter. Let me turn to Mr. Desmond and ask him a 
question. In your testimony, you talk about slow wage growth, 
high housing costs, and lack of adequate Federal funding to 
support housing assistance.
    If Congress were to fully fund housing support across the 
country, as has been suggested by the chairwoman, what type of 
effect would that have on cyclical poverty for individuals?
    Mr.  Desmond. It would be a game changer. Families finally 
would receive that breath that they feel when they are paying 
what they should be paying for housing. They would be able to 
root down in communities.
    Kids could go to the same school every consecutive year, 
build relationships with teachers and guidance counselors. 
Families could save. They could invest in job training classes, 
community college classes. It could be a massive anti-poverty 
and economic mobility solution.
    Mr.  Perlmutter. And this question goes to all of the 
panelists, and I would also ask the same thing of all of my 
colleagues here, Democrats and Republicans: When was the last 
time you went to a zoning hearing to increase density and to 
allow for affordable housing? Has anybody done that within the 
last year?
    Okay. How about within the last couple of years?
    So, Mr. Hendrix, let me ask you a question, because I 
appreciate sort of the intellectual approach you have taken and 
the ideological approach. And, I would say, sure, let us have 
more housing supply. Duh. That would be easy. But it takes 
money and it takes the appropriate zoning.
    So when was the last time you went to a zoning hearing in 
the suburbs, for instance, on affordable housing to increase 
density and reduce the cost of an apartment house, let's say, 
100 or 200 units, when was the last time?
    Mr.  Hendrix. I live in Manhattan and I know very well how 
expensive it is to live in Manhattan. It is far away from the 
suburbs and it is very expensive--
    Mr.  Perlmutter. When was the last time you went to a 
zoning hearing? Because I appreciate your testimony, and 
intellectually, it makes a lot of sense. Let us increase the 
housing supply. Let us make more affordable housing available.
    But when you go to those individual local zoning hearings, 
people say no, I don't want any more housing here. That is the 
problem. It is about politics.
    I yield back.
    Chairwoman  Waters. Thank you. I think you are talking 
about, ``not in my back yard (NIMBY)?''
    Mr.  Perlmutter. Yes.
    Chairwoman  Waters. The gentleman from Missouri, Mr. 
Luetkemeyer, is recognized for 5 minutes.
    Mr.  Luetkemeyer. I thank the gentlelady.
    I have an article here that was in one of the national 
publications this past week with regards to the housing 
shortage and profiles, and the first line says, ``Politicians 
bemoan the lack of affordable housing but their policies often 
create the problem.
    ``Look no farther than Oregon, where restrictive zoning and 
mandates have yielded the lowest rate of residential 
construction in decades. Oregon's population grew by nearly 
400,000 between 2010 and 2019. Yet, it only issued about 37 
percent of the housing permits it would take to be able to 
accommodate that population, much less address any of the rest 
of the needs that they would have.''
    And the article goes on and talks about one of the 
solutions that the State of Oregon has gone to was rent control 
and how it has actually exacerbated the situation instead of 
helped it.
    So, Oregon probably is a lesson in what not to do versus 
what to do, so we have that to look at.
    I know, Mr. Hendrix, you talked a bit about it. I think one 
of the other members talked about rent control here as kind of 
counterproductive. But if you would like to make a comment on 
it, I would appreciate it.
    Mr.  Hendrix. At best, rent control is a Band-Aid on the 
gaping wound in our housing market. Rent control often--at 
least, multiple academic studies have shown that it tends to 
harm many of the communities it intends to help. It tends to--
    Mr.  Luetkemeyer. Exacerbate the situation rather than--
    Mr.  Hendrix. It exacerbates the situation and makes the 
housing supply problem worse and--
    Mr.  Luetkemeyer. So those who live there have to pay more 
for the ones who receive less. It is a zero sum game.
    So if you understand how, at the end of the day, the person 
or entity, whomever owns the building, they have X amount of 
dollars they have to accumulate to be able to pay the debt and 
make it operate, if you charge less for some, others have to 
pay more. That is just the way it works.
    With that in mind, one of the things that you have talked 
about at length, and we have talked about here as a group, is 
with regard to all of the different regulation.
    I have a statistic here that says 32 percent of a 
multifamily development's costs are attributable to the costs 
associated with local, State, and Federal regulation.
    One of the things--I think in your testimony you talk about 
the Affirmatively Furthering Fair Housing (AFFH) rule that HUD 
has in place, that kind of ties local regulation with regards 
to Federal dollars. Is that a pretty good thing or is there a 
way to tweak that or should we enhance that, or what is your 
opinion on how we as legislators could perhaps tie some local 
rules and regulations to our Federal dollars to make them stop 
some of this so that things would be more affordable?
    Mr.  Hendrix. Part of what makes CDBG so important is that 
it offers carrots and sticks for HUD to be able to incentivize 
and inform localities to reform their housing markets.
    Because right now, these housing markets are neither free 
nor fair. And so being able to say, look, we are going to 
provide extra scrutiny and maybe even take back some money if 
you are not--if you are Cupertino and you are receiving CDBG 
funds for your sidewalks, and yet, you are also keeping out 
anybody who is not worth millions of dollars, something is 
wrong with that.
    And so, being able to tie that to actual concrete outcomes 
would be a positive step for HUD. The problem is that right 
now, their hands are tied. They can't connect CDBG funds and 
their scrutiny to the actual repeal of zoning laws.
    So they step back--if you look at the draft AFFH rule, they 
say that you could affect your zoning laws, you could not, that 
is because technically their hands are tied. And so, that is 
one--
    Mr.  Luetkemeyer. Their hands are tied by the rules that 
they have or by the law?
    Mr.  Hendrix. By the law.
    Mr.  Luetkemeyer. By the law.
    Mr.  Hendrix. That is right.
    Mr.  Luetkemeyer. So that is something we, as legislators, 
could fix, give them more flexibility with regards to how they 
could implement some of their laws to perhaps tie this together 
to be able to lower the cost of construction and make it more 
affordable for folks. Okay.
    I know that Mr. Scott didn't want to go to red-blue a while 
ago on things, but if a third of the red states have less of a 
homeless problem than the blue states, there has to be 
something different there.
    Do you understand the question with regards to, why does 
one group of States have less of a homeless problem than other 
States? What is the difference there?
    Mr.  Hendrix. Homelessness is very complicated. There is a 
spectrum of homelessness requiring a spectrum of solutions.
    But you can't disconnect the housing markets from 
homelessness. You can't disconnect the lack of homes from 
homelessness.
    And the fact that someone who is poor, who is lacking 
shelter, finds it very difficult to access basic shelter and, 
meanwhile, cities like Los Angeles can pass billion-dollar-plus 
taxpayer measures, and only after 3 years actually build 
affordable units for the homeless, and each unit costs more 
than the market rate, costing well over a half million dollars 
per unit, something is clearly wrong there.
    And that is not an ideological point. It is a point about 
math.
    Mr.  Luetkemeyer. Right. Thank you. I yield back.
    Chairwoman  Waters. Thank you.
    The gentleman from Washington, Mr. Heck, is recognized for 
5 minutes.
    Mr.  Heck. Thank you, Madam Chairwoman.
    And in the strongest possible terms, I express my 
appreciation to you for holding this hearing today on this very 
important subject.
    And I thank the members of the panel for joining us.
    Last week, I read a column on affordable housing by a few 
of my favorite economists--Mark Zandi, Jared Bernstein, and Jim 
Parrott--and, Madam Chairwoman, I ask your permission to submit 
it for the record, with unanimous consent.
    Chairwoman  Waters. Without objection, it is so ordered.
    Mr.  Heck. It is entitled, ``The Conundrum Affordable 
Housing Poses for the Nation.'' Their problem statement is 
actually one that I have been pounding the desk on for about a 
year, namely, that we are missing millions of homes.
    Indeed, I had the privilege to co-Chair a task force that 
produced a book entitled, ``Missing Millions of Homes,'' almost 
2 years ago, and I would commend it to each of you for your 
conception.
    The truth of the matter is Congress has to get in the game 
here in some fashion in order for us to solve this, 
specifically, closing the gap of anywhere from 5 to 10 million 
housing units that will be required and that would require us 
doubling construction from 1 million per year to 2 million per 
year, and that is a heavy lift and requires a change in 
direction by us.
    Not only did the article that I submitted talk about the 
problem of missing millions of homes but it also brought some 
solutions and I want to mention one, which is increasing 
funding for the Housing Trust Fund.
    But before I do that, let me be very clear.
    Mr. Hendrix, thank you for the implicit endorsement of my 
``YIMBY'' legislation, which I have co-sponsored with 
Congressman Hollingsworth, ``Yes In My Back Yard.''
    I strongly believe in that. But I also even more strongly 
believe that you could make those changes and change the 
direction at the local level, but it is still not going to 
produce a sufficient supply of affordable housing.
    Now, you all know that the Housing Trust Fund was 
established during the financial crisis to provide money to 
State housing authorities to deal with this problem to 
construct affordable housing. They are often in the best 
position to do that--the housing authorities.
    It gave them the flexibility they need to allocate those 
funds. Most housing authorities, including those in the State 
that I have the privilege to represent, use their investments 
to build more housing for low income and for seniors and for 
veterans, for the disabled and for individuals experiencing 
homelessness.
    Over the first 3 years of the Housing Trust Fund's 
existence, they spent a whopping $660 million. That is tongue-
in-cheek because, of course, it is not a drop in the ocean 
compared to the problem.
    That kind of brings me to my question. About 10 years ago, 
legislation to fund an extension of the payroll tax cut 
included a 10-basis-point G-fee on Fannie Mae and Freddie Mac 
as a pay-for for that tax cut, and it sparked a lot of 
criticism from both the left and the right because money was 
being taken from housing during a housing crisis for a purpose 
outside housing.
    Let me repeat that. Money was being taken from housing 
during a housing crisis for a purpose outside housing. And so, 
advocates all over the board from REALTORS to builders to 
lenders said that it was not a good idea to divert money from 
housing, from a housing source, and I agree. Money raised from 
a housing source should go back to housing. It is that simple.
    This G-fee is set to expire next year. Ten basis points, 
and we have a decision to make in the next handful of months 
about what is going to happen there.
    I am pleased to share with you that I am introducing 
legislation to continue that G-fee, to keep it in place, but 
instead, direct it to the Housing Trust Fund. So, money 
generated from housing would go into construction of housing so 
that America can finally begin to meet that demand.
    Ms. Chapple, in what little time I have left, I would be 
interested to know if you believe the Housing Trust Fund can 
and should play a material role in helping us to deal with the 
housing supply problem in America, especially the affordable 
housing supply problem.
    Ms.  Chapple. Absolutely. We need to fund and expand the 
Housing Trust Fund, and I would be very interested to see your 
bill and look at the fine print to see what it does to do this 
because this is clearly the way.
    I am a supporter of more housing supply. I am a supporter 
of up-zoning. However, it takes 30 to 50 years for that new 
market rate supply to trickle down to extremely-low-income 
households.
    So to stem the crisis, we need to do something in terms of 
using the Housing Trust Fund.
    Mr.  Heck. Thank you. I yield back, Madam Chairwoman.
    Chairwoman  Waters. Thank you.
    The gentleman from Michigan, Mr. Huizenga, is recognized 
for 5 minutes.
    Mr.  Huizenga. Thank you, Madam Chairwoman, and to my 
friend from Colorado, who was asking the questions about 
whether anybody has been to any zoning meetings about density, 
I actually have.
    Having a family involved in construction, I am in the 
middle of a 24-unit condominium project that we are building, 
and we had been looking at doing some apartments somewhere 
else, and I can tell you that is a real issue.
    You have seen a number of municipalities. I have not 
developed in Manhattan, so I have no idea what it is like 
trying to build there.
    Mr.  Hendrix. You are fortunate.
    Mr.  Huizenga. But I can tell you, in some of the other 
areas, there is that conversation talking about increasing 
density because there is a realization that to put in sewer and 
water, it is X amount per hundred feet, no matter how many 
people are tapping into it and, in fact, you can defray some of 
those costs by doing it.
    So there are some real conversations happening surrounding 
housing and what that means, and why it is important is because 
it all feeds into housing stock and availability.
    I will also tell you that we, all of us--I am not talking 
Congress, I am talking everybody in the audience as well as 
anybody who is watching and listening to all this--we are all 
responsible, too. Expectations have changed.
    If you look at--there was just a study done--what the 
square foot per person being built today is versus what it had 
been even 20 years ago, much less 50 years ago, it is a 
completely different ballgame and so societal expectations have 
changed as well, and that too also feeds into that 
affordability and that cost.
    I do want to get to a couple of other issues here. Mr. 
Hendrix, you had talked a little bit about this $500,000 per 
unit in some of the affordable housing.
    I have done a little research on this. Reno, Nevada, has a 
1,000-homes-in-120-days project they have been trying to do, 
and what they are doing is they are suspending their 
development fees which also, by the way, increases costs for 
developers and builders and all of those people trying to 
create that, and allowing them to have a different payment 
schedule.
    That is a start. But I am really curious if you can address 
maybe sort of that market price and how subsidies have really, 
frankly, an unintended effect on actual prices. If you can 
quickly touch on that?
    Mr.  Hendrix. You see a lot of promises and plans for more 
affordable housing by localities, and it has been consistently 
underwhelming.
    Often--for the production of affordable housing, whether it 
is publicly provided, whether it is privately provided--and 
often the reasons are the same.
    It is because the same barriers affecting all types of 
housing across most communities exist and I think that 
contributes.
    I was just in Boulder, Colorado, where they have a 1 
percent cap on new housing permits, and every new accessory 
dwelling unit has to be approved by your neighbors and it has 
to go through an extensive environmental review process. That 
adds significantly.
    Mr.  Huizenga. And I don't think anybody wants to--well, 
few people actually want to have additional greenfield 
development. A lot of people would love to do brownfield 
redevelopment. But sometimes, those permits and those hurdles 
that are in place are very difficult.
    I do need to move on to some other issues. Last year, a 
colleague of ours--not on this committee--Representative 
Sharice Davids of Kansas, authored a letter with a handful of 
other Members to all of the House Committee Chairs demanding 
that when we consider new spending bills, ``each committee's 
legislation is funded with responsible pay-fors that are 
considered early in the legislative process.''
    Do you agree that these Members were correct to demand that 
new spending bills have an offset?
    Mr.  Hendrix. I would have to look at the specifics on 
that. That is a great question.
    Mr.  Huizenga. Okay. In general, I think that is probably a 
pretty good idea. We do have four pieces of legislation that 
have been noticed with this hearing and I don't believe any of 
the bills contained offsets to pay for the more than $114 
billion in new Federal spending on housing.
    So it seems to me that we better have a part of this 
conversation, how we are going to pay for this on the Federal 
Government side, in addition to whether this is the right and 
effective direction of where to go.
    We all need to make sure that housing is more affordable 
and approachable. Just simply having the government trying to 
do it is not going to get us there.
    And with that, I yield back.
    Chairwoman  Waters. Thank you.
    The gentleman from California, Mr. Sherman, who is also the 
Chair of our Subcommittee on Investor Protection, 
Entrepreneurship, and Capital Markets, is now recognized for 5 
minutes.
    Mr.  Sherman. Thank you. The rents are too damn high. We 
can try to deal with that by subsidizing some renters. We can 
try to do that by building some government-owned buildings.
    But, ultimately, the private sector is going to house most 
Americans and we cannot repeal the law of supply and demand. We 
need to see more apartment buildings built.
    As Mr. Perlmutter points out, a big problem is NIMBY-ism 
and it is going to be very hard for us at the Federal level to 
step in and override local land-use planning decisions, 
although I do commend Mr. Heck for his YIMBY bill, and for the 
build more housing near transit act, and we can push local 
governments in the right direction through both of those.
    The question is, what can we do to encourage construction? 
We have a Low-Income Housing Tax Credit, but that is another 
committee, so I won't ask too much about that.
    Our committee has been very involved in the financing of 
single-family housing through the Government-Sponsored 
Enterprises (GSEs).
    Ms. Chapple, what can we do on the mortgage cost side to 
incentivize the construction of affordable multifamily housing?
    Would it be helpful for Fannie Mae and Freddie Mac to 
expand their involvement in construction loans for both new and 
rehabilitation of multifamily housing? And would it make sense, 
given the risk, to focus any new policy on those places with 
excessively high rents?
    Ms.  Chapple. To get to the last part of your question--
thank you--I do think we need to think about our low-cost and 
high-cost markets quite differently. We can't have a one-size-
fits-all solution.
    Fannie Mae in particular--what I have done work with Fannie 
Mae on is liberalizing regulations in order to help homeowners 
build accessory dwelling units. So, there is a lot of work that 
can be done on single-family lots where we can be adding extra 
housing units.
    Mr.  Sherman. It is my understanding that Fannie Mae and 
Freddie Mac don't do construction loans, per se. Should they be 
doing or guaranteeing construction loans in high-cost areas?
    Ms.  Chapple. Oh, absolutely. There are just not enough 
products available and so Fannie Mae's capital could really 
make some of these construction projects happen.
    Mr.  Sherman. So we need units that will pencil out and, 
obviously, if your construction loan is at a lower rate of 
interest, more will pencil out.
    We also have the Airbnb phenomenon. My City has adopted a 
rule--it would be hard to enforce--that you can't rent out your 
home or apartment for more than 120 days.
    Ms. Chapple, what do we do to keep rental units available 
for people who live there rather than turn them into short-term 
rentals?
    Ms.  Chapple. The Airbnb bans have been controversial. 
Airbnb rentals in low-income communities often provide income 
for low-income homeowners and help them stay in place.
    So, instead of regulating--
    Mr.  Sherman. But as a low-income homeowner, you are 
probably not renting out your whole unit for 120 days.
    Ms.  Chapple. Right. You are renting out a room.
    Mr.  Sherman. A room, yes.
    Ms.  Chapple. But what cities can do is use a transit 
occupancy tax to make sure that the city gets some revenue out 
of that and then channel those tax revenues into the Housing 
Trust Fund.
    Mr.  Sherman. Does anyone else have a comment on the Airbnb 
phenomenon reducing homes? And I draw a big distinction between 
renting out a unit where the owner lives there, and a unit 
where the owner does not or whomever is doing the renting, 
whether it is a subtenancy or otherwise.
    It is one thing to rent out a room that may not reduce the 
amount of rental stock. It is another thing to have a dozen 
apartment buildings all Airbnb'd.
    Mr. Hendrix?
    Mr.  Hendrix. I would just add that it is an important 
point that something like at least half of those who rent out 
their units on Airbnb say that it helps them stay in their 
neighborhood, and I think we can't forget that those who--
    Mr.  Sherman. Yes. My focus is not on, you live in two 
bedrooms, and down the hall you are renting something out. 
That, obviously, helps somebody stay.
    I yield back.
    Chairwoman  Waters. The gentleman from Kentucky, Mr. Barr, 
is recognized for 5 minutes.
    Mr.  Barr. Thank you, Madam Chairwoman.
    And this hearing really takes me back to my Economics 201 
class at the University of Virginia. I remember Professor Ken 
Elzinga, who wrote this great fiction book based on basic 
economic principles called, ``The Fatal Equilibrium.''
    In those lessons, he taught us supply and demand, and while 
there are complexities for sure in the housing market, at its 
core, housing affordability or price is just a function of 
limited supply and high demand.
    Demand is not going away for housing. So the solution is 
really basic economics. If there is an increase in supply while 
demand remains the same, prices tend to fall to a lower 
equilibrium price. So, we need more supply for sure.
    Mr. Hendrix, in your written testimony, you state that 
naturally affordable housing including shared housing, garage 
apartments and manufactured housing are important housing 
sources for millions of Americans and that regulatory burdens 
sometimes stand in the way of individuals accessing these 
options.
    I have long been a supporter of manufactured housing and 
preserving access to credit for low- and moderate-income 
consumers who are seeking to buy a manufactured home, and here 
is why: Manufactured housing is the largest form of 
unsubsidized housing in the United States. Nationwide, more 
than 22 million people live in manufactured homes and the 
average price is significantly lower than site-built homes in 
similar areas.
    Given the financial benefits of owning a manufactured home 
versus the limitations that come with renting an apartment or 
buying a condo or some other site-built home, how can we more 
successfully integrate manufactured housing as a solution to 
housing affordability challenges, given that supply and demand 
assessment?
    Mr.  Hendrix. As Congressman Sherman said, we can't repeal 
the laws of supply and demand. What we can do is repeal the 
laws that prevent manufactured homes from being placed in 
communities.
    It is actually quite hard to find a place where the zoning 
laws, as they are currently written in most communities, allow 
you to build manufactured homes, where you can site them. Many 
neighbors don't want that kind of low-income housing, and that 
is a tragedy.
    I think that we need to make it much freer for us to be 
able to accommodate that essential form of low-income housing.
    Mr.  Barr. Another lesson of basic economics is what you 
subsidize is what you get, and throwing more money, 
unfortunately, like this Ending Homelessness Act--$13 billion 
to subsidize high-cost housing--means that we are going to get 
more high-cost housing.
    I think what we need to focus on instead of these policies 
like Housing First is to look at whether or not that kind of a 
policy has a positive track record of successfully 
transitioning homeless individuals into permanent housing.
    And if you look at the model, it is just a failed model. It 
doesn't do that. Simply guaranteeing housing isn't always the 
answer.
    So, Mr. Hendrix, what role can supportive services like job 
training, financial literacy, and substance abuse treatment 
play in successfully transitioning people out of homelessness 
and into permanent nonsubsidized housing as opposed to just 
throwing money at higher-cost housing?
    Mr.  Hendrix. Housing First, I believe, should not be 
housing alone because those who are homeless are homeless for a 
variety of reasons. Every story is unique. And providing those 
essential supportive services is critical between someone 
potentially living on the streets who is going in and out of 
shelters and having a place to call home.
    I think that it is inconclusive, after decades of Housing 
First, whether or not Housing First has actually succeeded. I 
think what we have seen is that it has worked for some people.
    But we need more solutions. Yes, we need more housing, but 
we need more services being provided based on, for instance, if 
someone is severely mentally ill being provided services.
    Mr.  Barr. Exactly. And I don't think Housing First is 
actually caring for people when you disregard the underlying 
causes of why those folks are struggling.
    There are reasons why people find themselves in difficult 
situations. It can be a lack of education. It is sometimes 
mental illness. Sometimes, it is just bad luck. But sometimes, 
it is substance abuse and other issues.
    Housing First denies people of the services that they need 
and we need to meet people where they are.
    A final question for you, Mr. Hendrix. In my home State of 
Kentucky, we have a great organization that partners with 
community banks called Hope Kentucky. It is an organization 
that pools and aggregates loans from the private sector.
    What role do you think that these partnerships between the 
private sector and the government can play in terms of bringing 
to bear private capital to help housing affordability?
    Mr.  Hendrix. They are very important. I look forward to 
learning more.
    Mr.  Barr. Thank you. I yield back.
    Chairwoman  Waters. The gentleman from New York, Mr. Meeks, 
who is also the Chair of our Subcommittee on Consumer 
Protection and Financial Institutions, is recognized for 5 
minutes.
    Mr.  Meeks. Thank you, Chairwoman Waters, for holding this 
important hearing, and I thank all of the witnesses for being 
here today. I have read the written testimony of Mr. Williams, 
and I wanted to acknowledge Mr. Williams.
    I note that his son, Jaylen, is in the audience, and I want 
to say, Jaylen, you should be very proud of your dad for 
continuing to fight and for being an advocate for individuals, 
and I just salute you, sir, for your resilience and for 
continuing to fight to make sure that things get better.
    Let me also start by saying that I do not believe in simple 
narratives around the issue of housing. There is no one-size-
fits-all solution. A geographical area may play a role in it. 
But housing is one of the most important and under-discussed 
issues at the national level.
    As a nation, we are facing an array of serious housing 
issues. Homelessness is on the rise because of skyrocketing 
housing costs and underinvestment in anti-homelessness 
programs.
    Public housing facilities--I am a child and a product of 
public housing--are crumbling in cities across the country, 
including where I grew up, in New York.
    People are being thrown out of their apartments without the 
right to counsel. Young people are burdened by student debt, 
cannot buy homes, and, for example, the Black homeownership 
rate is down nearly 10 percent points over the last 15 years.
    This multitude of problems call for a multitude of 
solutions. We need to dramatically bolster and improve existing 
public housing.
    Localities must strengthen tenant protections against 
eviction, and Congress should provide additional funding for 
renters facing eviction so that they can seek counsel, and it 
does not have to cost them even more money--as took place in 
Mr. Williams' situation--thereby giving him less money that he 
can save and try to keep for his own, to try to pay his rent 
and try to improve himself.
    We need to take a Housing First approach to homelessness. 
Fannie and Freddie must be maintained as a government backstop 
for mortgage-backed securities as the GSEs are crucial for 
helping particularly Black and Brown people achieve the dream 
of homeownership, which helps people create wealth.
    Housing and creating wealth is something that is very 
important, and for most folks, like my parents, who put money 
into a home, it was the greatest investment that they ever 
made. They scraped those dollars together, and that is probably 
why I can still sit here today.
    But we also need to build more housing. This will allow 
lower rents and lower housing costs, thereby increasing 
homeownership rates for Millenials and people of color, while 
decreasing homelessness.
    I applaud the work each and every one of you do in trying 
to make sure that we resolve issues and promote better policies 
in regards to housing.
    Now, my question would be, first, to Ms. Jayachandran. The 
Trump Administration has proposed to zero out critical HUD and 
USDA housing programs such as the Community Development Block 
Grant program.
    The Administration's plan would also punish expensive 
cities like New York City, precisely where funds are the most 
needed and most valuable.
    From a development perspective, why are these funds 
important to maintaining the current affordable housing stock 
and increasing the supply of affordable housing, particularly 
in gentrifying neighborhoods?
    Ms.  Jayachandran. The reality is that in many high-cost 
cities, the cost of developing an affordable housing unit is 
more than the value of the unit, based upon an affordable rent. 
What that means is that the private developer doesn't 
necessarily have the economic motivation to pay for the full 
cost of the building and needs investment from other sources, 
including government.
    One of those sources that has been a stalwart in helping 
the creation and preservation of affordable housing has been 
CDBG, as well as HOME dollars. Those have been critical long-
term resources that have created and preserved most of the 
affordable housing stock that we have in the U.S. today.
    Mr.  Meeks. Thank you very much.
    And quickly, Professor Desmond, can you speak about 
eviction-related issues and what have you found over the course 
of your research and what do you believe are some changes that 
we should be doing here in Congress to make sure renters get 
crucial protections?
    Mr.  Desmond. One thing Congress could consider is 
expanding emergency assistance. Our research shows that one-
third of evictions in America take place for less than a 
month's worth of rent.
    This means that in Massachusetts, for example, one in 10 
evictions is for less than $600. In Virginia, one in 10 
evictions is for less than $335. This means that small 
interventions of cash could go a long ways to stabilizing 
families.
    Mr.  Meeks. Thank you. My time has expired.
    I yield back.
    Chairwoman  Waters. Thank you.
    The gentleman from Colorado, Mr. Tipton, is recognized for 
5 minutes.
    Mr.  Tipton. Thank you, Madam Chairwoman, and I appreciate 
you holding this hearing today.
    It has been an interesting conversation. I come out of 
Colorado, and I happen to represent a rural area of Colorado.
    But, Mr. Hendrix, I thought it was interesting when you 
were citing Boulder as an example, limiting the amount of 
construction that is going to be going on in Boulder, a very 
prosperous area.
    We see that in a number of our resort communities as well 
where prices--in fact, it has actually been encouraged locally 
to be able to try and drive up those prices for the cost of 
land and then the corresponding costs.
    I was just down in Glenwood Springs not long ago and 
visiting with a couple of builders who were putting in some 
low-cost housing. They had sited in Glenwood Springs. This 
happens to be pretty expensive--$380,000 to be able to build a 
facility there.
    So I guess really my question is, as I am listening to the 
conversation that is going on, a lot of the real impacts that 
we have in terms of being able to deliver affordable housing is 
actually back to the State and the local level as opposed to 
the Federal level.
    And we talked about the Community Development Block Grants 
that are going in. If we were to be able to say we are going to 
tie those dollars from the Federal land, you have to be able to 
put in affordable housing, is that going to help in an area 
like Boulder, or are they just going to say, look, we have 
already limited the growth and we don't want those lower-income 
people here?
    Mr.  Hendrix. Boulder can and often has said exactly that, 
and CDBG funds often don't involve for some communities a 
terribly large amount of money relative to their budget and 
especially relative to the wealth of the community. It is much 
easier for wealthy communities to just deny new housing, deny 
new residents, and deny funding.
    Mr.  Tipton. Madam Chairwoman, we are going to be talking 
about the Community Reinvestment Act (CRA) before long in this 
committee.
    We are going to have some proposed rules that are going to 
be put out by the OCC, and one of the criticisms of the current 
CRA regulations is they were last revised under President 
Clinton in the mid-1990s, and banks were able to lend to high-
income borrowers in low- to moderate-income communities and 
receive a credit for CRA obligations.
    Under the new proposed rule that is coming out of the OCC, 
you are going to actually have to tie those dollars to low- to 
moderate-income people to be able to receive that credit. Is 
that maybe one of the tools that the Federal Government can 
actually legitimately work with to be able to drive some 
resources back into the communities?
    Mr.  Hendrix. Traditionally, that has been true. I look 
forward to reading that. I think that is a terrific question. 
It is very important.
    Mr.  Tipton. Great.
    Madam Chairwoman, again, I appreciate you holding this 
hearing.
    Mr. Williams, you have an incredibly compelling story and 
you should be proud of yourself, as well as your son. I think a 
lot of our goal and one of the concerns that I have is when we 
do look at perhaps some of the subsidization that may be going 
on, are we just continuing the problem or are we going to be 
solving, actually, the problem and to be able to open up the 
door to make sure that we have proper regulation at the State 
and local levels, which they are going to have to deal with and 
the incentives out of the Federal and to be able to address 
something that impacts every one of our States.
    Thank you, and I yield back.
    Chairwoman  Waters. Thank you.
    The gentlewoman from Ohio, Mrs. Beatty, who is also the 
Chair of our Subcommittee on Diversity and Inclusion, is 
recognized for 5 minutes.
    Mrs.  Beatty. Thank you, Madam Chairwoman.
    And let me say to all of the witnesses today, thank you for 
being here.
    First, I would like to make a comment, Mr. Williams, to 
you. I can't imagine what is going through your mind now as you 
are sitting there.
    But I want to say thank you for sharing your story and, 
certainly, it confirms for most of us, or should, why we are 
here.
    And it made me proud that a few years ago when I got here--
I am a very family-oriented person, so I said to my team, let's 
talk about family unification.
    And we were able to get $20 million in the Family 
Unification Program; money had not been in there since 2010, 
and we were able to put in more money. Not enough, but your 
story will help me, and hopefully, help all of us.
    And let me end with this. I want to take this time to say 
more than thank you. What you did today for Jaylen made all the 
difference, and let me tell you how I know.
    Madam Chairwoman, when I left this seat, I went and spent 
the last 22 minutes with Mr. Williams' son, and it was the best 
22 minutes that I could have ever invested in housing and 
family.
    I took him to my office and showed him pictures of African-
American men and families who had the same story as you shared 
today, including my story of when my father's house burned down 
with all his brothers and sisters in it and they found 
themselves homeless.
    And I looked at him and said, ``And I am sitting here in 
the United States Congress.'' And then, he took a picture in my 
office and he beamed. But here is what is so important, Mr. 
Williams. He looked up at me and he said, ``My dad's a hero,'' 
and that is the message he is taking back home, and that is the 
message I want you to have. And I want to say, thank you.
    Now, let me move to you, Ms. Chapple. Back in August, I 
held a community conversation with some 400 constituents in my 
3rd Congressional District, and what overwhelmingly and 
alarmingly we heard was the whole issue of gentrification. And 
in your testimony, you focused on how it can affect affordable 
housing, specifically in rental housing.
    But let me just tell you what we heard from seniors and 
retirees who own their home, which is that they have trouble 
keeping up with it because of the increased property tax and, 
specifically, our county treasurer, Cheryl Brooks Sullivan, 
told us that nearly 30 percent of the foreclosures in our 
county were from people not paying their property taxes.
    Those constituents shared that it was because of 
gentrification that they weren't able to, because people would 
come in and increase home values in new homes and folks with 
more disposable income, and here they had been in their home 
for 30 or 40 years and their property tax went up.
    Can you briefly discuss the effects on our elderly and our 
retirees as it relates to gentrification?
    Ms.  Chapple. Thank you so much for raising that point.
    In California, we have Proposition 13, so actually 
homeowners are not displaced. But this is a critical issue, and 
on the East Coast in New Jersey, in Ohio, in Austin, Texas, 
there are attempts to pass new legislation that can help keep 
low-income property owners, many of them seniors, in place by 
mitigating or adjusting those property tax increases. So, I 
would urge your constituents to look at that.
    Mrs.  Beatty. Okay. Thank you.
    And Mr. Desmond, I want to thank you for being here, and I 
want to thank you for writing your book, ``Evicted.'' I have 
been carrying it around all day. My team is reading it.
    And to you, Mr. Williams, there are some compelling stories 
in here, so you are not alone--that Mr. Desmond has shared with 
us not only that it happens but how we, as legislators and 
Members of Congress can help.
    Mr. Desmond, can you quickly discuss the importance of 
providing emergency assistance before a family ends up like Mr. 
Williams?
    Mr.  Desmond. Sure. The importance is for a lot of families 
it doesn't take a huge emergency or a big crisis to push them 
toward eviction.
    Some very small change in their incomes can do it or a very 
small increase in rents can be the thing that is separating 
having being a home from being homeless.
    Studies have shown that it is actually cheaper to invest in 
emergency assistance than to bear the cost downstream that we 
are currently paying for our large tolerance of residential 
instability.
    Mrs.  Beatty. Thank you, and I yield back.
    Chairwoman  Waters. Thank you.
    The gentleman from Texas, Mr. Williams, is recognized for 5 
minutes.
    Mr.  Williams of Texas. Thank you, Madam Chairwoman.
    I would also like to say to you, Mr. Williams, your 
testimony was very powerful, very memorable, and the bottom 
line is, you did a good job.
    We up here always want to talk about how good a job we do. 
You did a really good job, and I am proud for you.
    And I live in Texas. You should come to Texas, actually.
    I also represent Austin, Texas, in full disclosure--a 
portion of it. The chairwoman has taken a keen interest in 
homelessness and many affordable housing issues, and during 
this time we have consistently heard that the housing supply 
isn't keeping up with the demand.
    Mr. Hendrix, your testimony ended with a fantastic line, 
``We cannot legislate the laws of supply and demand.'' We have 
talked about that today.
    But together, we can help America's housing market become 
more free and fair, and I completely agree that making markets 
freer could greatly help with affordable housing.
    And we don't need to look any farther than right here in 
Washington, D.C., to see how increased capital investment 
transformed a previously impoverished part of town than what 
the Nationals Park did for southeast D.C.
    As new developments moved into the area, the property 
values for local residents went through the roof. Residential 
and commercial property value increased from $1.15 billion to 
$2.65 billion, from 2008 to 2018.
    For the residents who did not sell, they were able to reap 
the benefits of the now transformed area. I have had many 
Members of Congress, frankly, come up to me and say they would 
never go down to that part of town before all the development 
came.
    An article in the Washington Post entitled, ``Ballpark 
Boomtown'' interviewed a longtime resident of southwest D.C., 
Andy Litsky, who was against construction of the stadium in 
2005. However, the article states that a decade after Nationals 
Park opened, he has changed his mind about the project.
    He is quoted as saying, ``We are in the area where the 
cranes rise. Nats Park has been a tremendous boon to the region 
and the city and even to our neighborhoods.''
    I personally agree with Mr. Litsky and think that the 
ballpark did measurable good to the area that now supports more 
than double the number of residents than before all the 
development began.
    And also, we see many cities across America spending 
millions of dollars to try to expand economic opportunities for 
their citizens and to bring in that kind of revitalization.
    So my question to you, Mr. Hendrix, is how do we elaborate 
on the differences between cities who say gentrification is a 
major problem versus the ones that are trying to bring in these 
new investments?
    Mr.  Hendrix. There needn't be a tension here. But what 
often happens is is when new residents come to town, especially 
if they are wealthy or if they are from outside and they bring 
in money but there is no housing stock for them to buy up, to 
rent, they often have lower-quality housing stock that they 
then pursue and that is often the same kind of housing stock 
that poor or low-income residents have been living in. And so, 
the fears of displacement become very real for many 
communities.
    That is why we need more housing of all types. That also 
includes luxury and market-rate housing to be able to soak up 
that kind of demand, because if people can stay in their 
communities if they so desire, what we call gentrification also 
has another flip side of bringing in more opportunity, more 
jobs, and lower crime.
    Mr.  Williams of Texas. Like we have seen here in D.C.
    Mr.  Hendrix. Yes.
    Mr.  Williams of Texas. Okay. Thank you.
    Gentrification is caused by simple economics, and according 
to the principle of supply and demand, which we have talked a 
lot about today, if there was enough housing to keep up with 
the rising demand, rents and house prices would stay relatively 
low.
    Unfortunately, as we have heard many times in front of this 
committee, and throughout the Congress, State and local 
regulations account for, as we have heard today, 30 percent of 
the cost of these new developments.
    If we do not address the root causes that make building new 
housing units so expensive, then we would be delaying this 
problem until it will ultimately need further Federal 
Government help to keep propping up the system.
    So my question to you, Ms. Jayachandran, is what would you 
recommend we do here in Congress to incentivize localities to 
change their policies and allow more housing units to be built 
other than CDBG funds?
    Ms.  Jayachandran. Good question, and we agree with most of 
the policies that Mr. Hendrix has proposed. We agree that 
increasing supply is important, and lowering barriers, local 
barriers.
    I think the one thing we would add is that that alone 
doesn't address current affordable housing challenges for 
renters who are currently struggling, and it needs to be 
coupled with investment, investment in vouchers, investment in 
capital subsidies to create more affordable housing, investment 
in rental assistance contracts.
    To your point about, what can we do to incentivize more 
local--lowering barriers, things like AFFH, the Affirmatively 
Furthering Fair Housing rule, can help communities by 
requiring, in conjunction with local or Federal investment, 
that they create a plan that includes lowering barriers to 
affordable housing.
    There can be things like there was from the Department of 
Education, the Race to the Top, to competitions that encourage 
and motivate cities to adopt inclusive policies.
    There can be policies that encourage, in conjunction with 
investments in Federal transportation, that transportation has 
to come with investments in housing.
    Mr.  Williams of Texas. Thank you. I yield back.
    Chairwoman  Waters. Thank you very much. The gentlewoman 
from Pennsylvania, Ms. Dean, is recognized for 5 minutes.
    Ms.  Dean. Thank you, Madam Chairwoman, and I thank all of 
you for your testimony here today, and I am delighted we are 
talking about this. It is because of this chairwoman and many 
other advocates that we are talking about this extraordinarily 
important issue.
    Just so you can sort of understand where I am from, I 
represent suburban Philadelphia, or a piece of suburban 
Philadelphia, Montgomery County out into Berks County. And 
before I came here, I was, for 6\1/2\ years, a State 
representative. We participated in data collection on 
homelessness, point-in-time counting, so I wanted to ask first, 
Ms. Chapple, you about that. How do we get the best data on who 
is actually experiencing homelessness at a moment? I was always 
skeptical of our count. We would count--I hope I'm not 
misstating it--but we counted in January--a member of my office 
participated in it--and then, again in June. And yet, we knew 
of other people who were not being counted on the street 
because we knew that they slept in a car in a Walmart parking 
lot or other places where they were unseen. So I am worried 
about data collection, as I see some counties talking about 
homelessness on the decrease. Can you speak to what are the 
best practices? How do we actually find out and know who is 
homeless at any one time?
    Ms.  Chapple. Data is a huge problem, as you point out. I 
am glad you raised it. And we do these yearly point-in-time 
surveys. It is not enough to really track it. One model that I 
really appreciate is worked on at the California Policy Lab, 
which has developed a predictive model for homelessness by 
using administrative data sets from many different agencies in 
Los Angeles County. Many homeless sign up for services at 
different agencies. We don't typically look across agencies to 
see where they are. We could be using this data much more 
effectively to track people to predict where homelessness is 
happening, is going to happen, and to prevent it before it 
does.
    Ms.  Dean. And I am proud of our Montgomery County for 
trying to put together cross-agency coordination of data 
information and just understand who is out there and who is on 
the street and in need. Mr. Desmond, I was struck by some of 
your testimony. I wanted to ask you to flesh it out a little 
more in light of a bill that I have co-introduced with 
Representatives Stivers, Turner, and Bass, the Fostering Stable 
Housing Opportunities Act, that has passed on suspension out of 
the House, and would extend the current voucher system by 
providing vouchers on demand to foster youth as they begin to 
age out of the system, who are at risk of homelessness, 
allowing them to get a housing voucher without waiting on a 
waiting list, which is an absurdity. We can see they are coming 
into our communities and population. What are the obstacles for 
vulnerable populations, like foster youth and other vulnerable 
populations, to achieve assistance?
    Mr.  Desmond. The biggest obstacle is the waiting list. The 
biggest obstacle is if they aren't provided help now, then what 
they are going to face is paying 60 or 70 percent of their 
income to housing costs. We can build more housing, we can 
rezone our cities, but that is not going to help the foster 
youth today.
    Ms.  Dean. Correct.
    Mr.  Desmond. And we are bleeding out. We need the help 
today.
    Ms.  Dean. I appreciate that. Mr. Williams, I am a big 
believer that authentic stories inspire, and yours is certainly 
an authentic story, and you have brought your son here today. 
You both can be very proud. I am proud of both of you, even 
though I have no right. But I am glad you brought us your story 
because maybe it will inspire us in Congress in a bipartisan 
way to address some of the cracks in the system, some major 
cracks in the system. I was struck by what you wrote in your 
testimony about the speed with which this all came tumbling 
down. Could you speak to that a little more, because I think 
many of us don't understand that many people are perhaps one 
month's rent away, or one loss of a job away from suddenly 
losing everything.
    Mr.  Williams. Yes, ma'am. I think I am all cried out, so I 
am trying to keep it simple.
    Ms.  Dean. You won't be alone.
    Mr.  Williams. I am going to try to keep it brief. 
Everything happened, if I understand correctly, on that day, 
the event in question, everything happened. My whole life was 
upset. That day, I will never forget. Like I said, everything 
happened within hours, literally, waking up from knowing that 
the night before, you have done all you can, and knowing that 
when that knock comes on the door, it is cut-and-dried. It is 
court-ordered. It is you get your stuff, and your whole life is 
pretty much up upside down at that point.
    And the most compelling thing that will always stick in my 
mind and in my family's mind is how do you get all this back, 
and how did you lose it so fast? I can sit here all day and 
tell you the things that I have lost. I am not wearing my 
wedding ring. That is one of the things I have lost--hopefully, 
my wife doesn't kick me out of the house for that--and my 
wedding pictures. And just, your life is all turned upside 
down.
    Ms.  Dean. Thank you very much. As I said, I hope your 
story and the story of millions of others inspires us to invest 
in housing.
    Chairwoman  Waters. Thank you. The gentleman from Arkansas, 
Mr. Hill, is recognized for 5 minutes.
    Mr.  Hill. Thank you, Chairwoman Waters. I appreciate you 
holding this hearing. It has been a compelling panel. I thank 
each of you for taking time to come to Congress and share your 
views on this important topic, and certainly this issue of cost 
is a major issue. I am blessed to represent Central Arkansas, 
Little Rock, Arkansas, the capital of our State. And obviously, 
it is nice to be in a more moderately-priced area, and it 
allows people up and down the income curve to have more choice, 
and this is such a burden in our expensive urban areas. All of 
us up here, I think, on both sides of the aisle see those 
differences, understand those differences, and I think the 
strategies to tackle them have to be different, too. And there 
is not one answer.
    I was particularly compelled, Mr. Williams, by your 
concerns, as you saw this eviction coming and the lack of help 
you saw beyond your family of dodging it, ``How do I compensate 
for this?'' And I have really been proud of one of the main 
members of our team in Little Rock, the Our House shelter, that 
goes out preemptively working with families, even landlords, 
the whole network of the City, to get ahead of eviction, 
particularly for families. And Our House has been doing this 
for 3 decades. They have done it really well, and to provide 
that so you don't go to that motel option that you did. It was 
so expensive, and then, as you say, the application fees of 
trying to get back into housing. So, thank you for bringing 
that story to us so that we know what you went through with 
your family.
    Mr.  Williams. Thank you.
    Mr.  Hill. And when you have good wraparound services and a 
good team effort, I think, in a community you can tackle so 
much of this, particularly, as I say, in a place that is 
blessed with lower-cost alternatives. For example, in Metro 
Little Rock, a $100,000 house, a 3/2 house, is $100,000. You 
are talking $740 a month. So Roger Williams can recruit for 
Texas only once. But I love Richmond, and I love Virginia, but 
we welcome you to come check out opportunities in Arkansas as 
well.
    Also, St. Francis House does a lot of temporary work in 
Little Rock, and we go there routinely with our veterans' 
organizations. And we ran into a constituent at St. Francis 
House. He was a veteran, he was homeless, and he hadn't filed 
his income taxes in 8 years. And he was afraid. He thought, 
well, there can't be possibly be anything good that will come 
of that, and my team helped him. He filed his returns. He 
actually got money back after he filed those returns, and he is 
now out of St. Francis House and able to get a place of his 
own. And this is the kind of work that we have to do, I think, 
collectively in each of our cities.
    Mr. Hendrix, with those affordability challenges like we 
have talked about, particularly in California and New York, big 
States like that, it is interesting to me that so many are 
proposing new levels of rent control. I understand the logic in 
that to some degree, but doesn't rent control produce fewer 
units? Tell me what the economics of rent control are?
    Mr.  Hendrix. Most studies have shown that rent control 
tends to hurt housing supply.
    Mr.  Hill. Why is that? Why does it do that?
    Mr.  Hendrix. Because it reduces, for one reason, the 
returns for those who are going to invest in the property in 
the first place. So if they know that they are going to be 
making much less money on their property in order to invest in 
the first place to maintain it, to build new properties, that 
is a serious disinvestment to create new units over time.
    Mr.  Hill. Okay.
    Mr.  Hendrix. It also ensures that those who are locked 
into units tend to stay in units. So if your priority policy is 
housing stability, rent control is certainly part of that, but 
for the winners, for the housing lottery winners, it can do 
that.
    Mr.  Hill. Thank you.
    Mr.  Hendrix. But at the same time, it means that people 
who are mismatched for their units, a family that is stuck in a 
small unit, they may be stuck there far longer than they 
should.
    Mr.  Hill. Thank you. Let me switch subjects. Ms. 
Jayachandran, I would love for you to get back to me with your 
role as CEO of the Housing Trust, and help me look at 
strategies for city land bank situations. In Little Rock, we 
have such a challenge in taking lots and land bank properties 
and getting them back to productive use. One is the title 
issue, chasing titles for those properties, and also, trying to 
get them in a block where you incent a builder to come into an 
urban area and have some economies of scale. Could you follow 
up with me? Maybe we could meet and talk about strategies? You 
have seen 6 cities take that and make that successful.
    Ms.  Jayachandran. I would be happy to. Mr. Williams talked 
about the area around the baseball stadium. In D.C., we have 
something called the Douglass Community Land Trust, which is 
trying to preserve affordability in a booming area through, to 
a certain degree, land banking. And my organization has 
contributed a project to that land bank.
    Mr.  Hill. Thank you, and thank you, Madam Chairwoman.
    Chairwoman  Waters. You are welcome. The gentleman from 
Illinois, Mr. Garcia, is recognized for 5 minutes.
    Mr.  Garcia of Illinois. Thank you, Madam Chairwoman, and 
sincere thanks to all of the panelists who are here today, 
especially Mr. Williams for sharing his most difficult 
tribulations, of being one of the homeless families in our 
country. I want to talk about gentrification and displacement, 
as the district that I represent is experiencing that.
    It is estimated that 1 in 3 low-income households in 
Chicago lack access to affordable housing. The lack of 
affordable housing is driving displacement, which has been 
particularly severe in the Logan Square neighborhood in 
Chicago, which is in my district, where over the past 15 years, 
we have seen 20,000 Latino residents and 10,000 African-
American residents having to move to other parts of the City or 
to suburban communities. Ms. Chapple, you spoke about the 
neighborhoods like Logan Square when you first testified, that 
many low-income neighborhoods are experiencing this investment 
where landlords disinvest in their property and/or displace 
tenants in order to make way for profitable reinvestment later. 
Especially after the 2008 financial crisis, we have seen Wall 
Street investors engaging in speculation, in some cases holding 
vacant property that could be used for housing while they wait 
for the neighborhood to gentrify. Ms. Chapple, can you 
elaborate on this practice? What tax or housing policies might 
be considered to curb speculation and prioritize funding for 
affordable housing?
    Ms.  Chapple. Thank you for raising this super important 
issue. Speculation is rampant in core neighborhoods like Logan 
Square, which I am familiar with, and it is going to take 
active monitoring of these properties. And in some cities, 
unfortunately not in this country, but my best example is from 
Vancouver, which has passed an anti-speculation tax. And there 
are ways in the real estate transfer tax or other tax 
mechanisms to make sure that outsiders, or second home 
purchasers, or LLCs, are guarded against. And we will have to 
actually create a speculation watch list, as New York City has 
done, as HPD in New York does, where we can actually catch this 
before it happens, through early intervention.
    Mr.  Garcia of Illinois. And in this vein, in recent years, 
the private equity firm, Blackstone, has become the largest 
landlord in the country. And a housing expert at the U.N. last 
year accused Blackstone of making the housing crisis worse, 
including through aggressive evictions. Meanwhile, the so-
called Opportunity Zones, created as a part of President 
Trump's 2017 tax overhaul, appear to incentivize Wall Street's 
investment in gentrifying neighborhoods rather than in 
affordable housing. The National Community Reinvestment 
Coalition (NCRC) estimates that 70 percent of gentrified 
neighborhoods are within or next to an Opportunity Zone. So my 
question is, does this tax policy make gentrification and 
displacement worse?
    Ms.  Chapple. Absolutely. I think we need to look at where 
we are designating Opportunity Zones, and make sure that this 
is not in at-risk places that we are going to change anyway. So 
let's make sure that those investments go to the disinvested 
neighborhoods that need it most.
    Mr.  Garcia of Illinois. And one of the greatest drivers of 
gentrification throughout the country has been driven by 
unchecked and unguided transit-oriented development--Chicago is 
an example--around public transportation. Market incentives 
drive developers to cater towards an affluent clientele when it 
actually works against working-class families who need access 
to public transit the most. That is why I am working on 
legislation to promote equitable transit-oriented development. 
We want to marry the silos of transportation and housing to 
address these issues. Can any of the panelists speak to this 
challenge and describe how Federal policy can best encourage 
the development of dense affordable housing near transit? I 
warn you, you have 17 seconds.
    Ms.  Chapple. Federal funding for transportation comes down 
through our MPOs, so we need to have carrots and sticks like we 
used to in the A85 circular. You have to plan for housing 
around transit. You won't get your money otherwise.
    Mr.  Garcia of Illinois. Anyone else, quickly? I think that 
was the last word. Thank you very much.
    Chairwoman  Waters. Thank you. The gentleman from Georgia, 
Mr. Loudermilk, is recognized for 5 minutes.
    Mr.  Loudermilk. Thank you, Madam Chairwoman. And I thank 
everyone for being here today. This is one thing I think that 
you see everyone here identify is, we have a problem in the 
United States, but some of us differ, and it is just not on a 
partisan basis. You have heard some of my colleagues on the 
other side talk about, you can't fight against the market 
powers, and it is true. I think we may differ a little bit on 
what are the solutions, because I don't think it is a one-size-
fits-all solution. It varies between different communities.
    Let me speak about Bartow County, Georgia. This is my home 
county. Bartow County, Georgia, was significantly impacted 
during the financial crisis. Our unemployment rate was around 
10 percent. It was bad. We actually saw a decline in housing, 
but not in multifamily housing, because a lot of people who 
were losing their homes were moving into apartments. Some were 
moving in with their family members, but it created a little 
bit of a crisis in the multifamily environment there.
    My son and his new wife were looking for an apartment 
around that time, and now my daughter and son-in-law are in an 
apartment, and they have seen the prices of those apartments 
continue to go up. I was meeting with one of the new 
manufacturers in our County. Now, we have the same problem when 
it comes to housing, but a different catalyst. Bartow County 
today has the lowest unemployment rate that it has had in the 
history of the county. It is around 3.5 percent.
    I was meeting with one of the manufacturers, and I asked, 
what are the biggest issues you have, and I was expecting 
tariffs. I was expecting other issues like that. And they said, 
no, it is the lack of starter homes for our employees because 
they are starting employees at an increased wage. These are 
factory line workers, who, by their income, would still be able 
to buy a $175,000 home, which there are, or there were, in our 
area. Right now, if a home comes on the market for, let's say, 
$165,000, it is literally sold in minutes for more than the 
asking price. But a $250,000 to $300,000 home is sitting out 
there for a year or more, and usually when it does sell, it 
sells for less.
    So what has happened is all of these new employees are 
forced into the apartments because there aren't enough starter 
homes, and they would love to be able to buy these homes. So we 
have the same problem, but it is created by a different force. 
One was the lack of a strong economy. Now, it is a strong 
economy. So what has made the difference, and we are looking to 
go in the same direction that happened during the crisis, is 
the faith-based community nonprofits, charities all came 
together working with the government for a solution. For 
instance, during the financial crisis, churches started opening 
up their fellowship halls for temporary housing for those who 
had lost their homes. My daughter is on one of the boards for 
one of the charities, and my son-in-law is on the board of a 
homeless shelter, and they work very well together.
    What we are seeing right now is, a culmination of things, 
that the developers aren't developing some of the property 
because of regulation, because of the cost involved. But 
actually, the faith community has come together again to say 
how can we address this? It is by building starter homes, which 
would free up some of the pressure that is on the multifamily 
living, as well as opening up more of those. And they are even 
looking at developing a nonprofit to buy property to build some 
homes, to actually sell those homes. So I think, in our case, 
it is really a local issue.
    Mr. Hendrix, what I keep hearing, though, is the regulatory 
cost of actually building the affordable housing. What are some 
of these costs that developers are facing that are holding them 
back?
    Mr.  Hendrix. I will mention one that I haven't talked 
about before because it actually had a solution being found in 
Georgia right now. So there is a startup called PadSplit 
operating around the Atlanta, Georgia, area, saying we have so 
many large homes, say, 5-bedroom homes. What if we can turn 
them into 5-unit apartments essentially? The problem that they 
face is unrelated persons laws saying that we, the locality, 
are going to define what a family is. We are going to define 
who can live together. And they are saying, no, we need to be 
able to allow persons who are not related to one another to 
live together, to take homes that are larger than ever before 
in our history, and turn them into more places and more 
apartments for young families, for people just starting out. 
That kind of like starter home approach, we need more of that, 
and we need to reduce the regulatory barriers to them.
    Mr.  Loudermilk. That is a good point. As I mentioned 
earlier, those more expensive homes in our area, $250,000 to 
$300,000 homes, which is a pretty good-sized home in rural 
Georgia, right? And this is just outside of metro Atlanta. That 
is a perfect example. I think when it comes to the zoning 
issues we were having with some areas, it is public pressure 
from the local communities that make a difference. But thank 
you all for what you are doing, and I yield back.
    Chairwoman  Waters. Thank you. The gentlewoman from Iowa, 
Mrs. Axne, is recognized for 5 minutes.
    Mrs.  Axne. It has been a while.
    [laughter]
    Mrs.  Axne. Thank you, Madam Chairwoman, and thank you to 
the witnesses for being here. Mr. Williams, I do want to say 
how sorry I am to hear your story, and it is really sad in what 
you have gone through. And I want to thank you and Professor 
Desmond for all that you do to bring a light to the struggles 
that Americans are facing. So thank you so much for sharing 
that, and thank you both for your help when it comes to that. 
We shouldn't have a point in this country where folks are 
trying to figure out if they are going to put food on the table 
or keep a roof over their head, and that is why we are all here 
today.
    Professor Desmond, I know that as part of your research 
for, ``Evicted,'' you lived in a mobile home park. As a matter 
of fact, I lived outside of Milwaukee for a little bit, so it 
was neat to see that. I just met with my some of my 
constituents, and one of them is about to pay 70 percent more 
from his income for the rent for his site in his manufactured 
housing community. Does that sound like some of the stories 
that you have heard where people are just going to, all of a 
sudden, have to pay 50, 60, or 70 percent more than what they 
were paying?
    Mr.  Desmond. Sure. When I lived in the mobile home park, I 
met a grandma who is paying over 70 percent of her income to 
rent a mobile home that was literally condemned by the city. I 
met people working 2 or 3 jobs, and most of their money was not 
going to their kids, but going to the utility company and their 
property owner.
    Mrs.  Axne. And the whole dais mentioned some things 
earlier during your testimony, but what kind of long-term 
effects does this cause?
    Mr.  Desmond. What we know is that the big losers of the 
housing crisis are the kids. When families are spending more 
than 30 percent of their income on housing costs, they don't 
buy enough food for their kids. They don't invest in after-
school activities. Their kids are really the ones who lose out. 
We have a study that shows that having kids actually increases 
your risk of eviction, not decreases it.
    Mrs.  Axne. Thank you for that. Just so you know, if you 
haven't heard, in Iowa, we have a company called Havenpark 
Capital that recently purchased 7 manufactured housing 
communities, and, again, came in and jacked up the land rent 
rates up to 70 percent. In your research, is this kind of 
activity in manufactured housing something you have seen 
broadly? We just mentioned that it leads to possible evictions, 
but how broadly are you seeing an issue like this?
    Mr.  Desmond. Manufactured housing is a decent source, a 
big source in America for naturally-occurring, affordable 
housing. Often, what we are seeing in America is that those 
properties are being bought out and cleared out, though, and 
are at risk of displacement just like other older housing 
stock.
    Mrs.  Axne. Thank you for that. I wanted to see what we 
could do to hopefully prevent this, and, fortunately, we have a 
lot of opportunity here in the Financial Services Committee to 
help with this issue. So last week, I introduced the 
Manufactured Housing Community Preservation Act to provide 
grants for folks to be able to purchase and preserve those 
manufactured housing communities (MHCs). And what it would do 
is essentially allow up to $1 million in grants for nonprofits, 
for the homeowners themselves to pool together and try and buy 
the property themselves, and for the State or local entities to 
also make that happen. But it also allows the MHC, as an 
affordable housing unit, to maintain itself, and then limit 
those rent increases from going up because HUD would be 
involved in making sure that doesn't happen. I would ask you 
and Ms. Jayachandran--I don't know if this will solve every 
problem. I know we have a lot more solutions out there. But I 
am wondering what your thoughts are on this kind of policy, 
giving folks who might not have an opportunity to purchase 
their own land or have a nonprofit or some type of entity help 
them? How do you see this fitting into the whole opportunity 
for manufactured housing and giving people an opportunity to 
stay in those communities?
    Ms.  Jayachandran. We would support that. In large part, 
thanks to Mr. Desmond's book, my organization, NHT, has been 
searching and looking for opportunities to purchase 
manufactured home communities who are supportive of communities 
where residents have the chance to purchase their own pads. But 
that is not a solution for everyone, and we think that another 
parallel solution is mission-based owners, like nonprofits, who 
are going to keep the site-level rent affordable, invest in the 
properties, unlike some of the owners in, ``Evicted,'' and we 
would welcome support to help us purchase communities.
    Mrs.  Axne. Wonderful. We will have to get together and 
learn about some of those investment companies so we can see 
who might be good players in the system. I appreciate that. Mr. 
Desmond, did you have anything to add?
    Mr.  Desmond. I think that the people I met when I lived in 
a mobile home park bought into the idea of an American Dream. 
They wanted a piece, they wanted a home, and they recognized 
deeply that everyone needs a stable, affordable home. So by any 
means that we can deliver that, I think people would be eager.
    Mrs.  Axne. I appreciate that. Is there anybody else who 
would like to add to this conversation? Ms. Chapple?
    Ms.  Chapple. The City of Palo Alto actually bought a 
mobile home park that was under risk of displacement, so I 
would encourage these funds to come down to cities.
    Mrs.  Axne. Have you seen any of the outcomes as a result 
of that?
    Ms.  Chapple. Oh, absolutely. It stabilized that area and 
allowed the kids to keep going to school in Palo Alto, the best 
school district in the State.
    Mrs.  Axne. Wonderful. Very good. Thank you so much. I 
appreciate it, and we will continue to work on this issue 
together.
    Chairwoman  Waters. Thank you. The gentleman from Ohio, Mr. 
Davidson, is recognized for 5 minutes.
    Mr.  Davidson. Thank you, Madam Chairwoman, and thank you 
to our guests, our panel. Unfortunately, it looks like Mr. 
Williams needed to leave about 2\1/2\ hours into it. I am 
impressed with his son. His endurance is pretty good for his 
age. Hopefully, you guys are still laser-focused on helping to 
solve this problem.
    I think it is a common misconception that the United States 
somehow doesn't care about this problem, or that only one party 
in America cares about the problem. The reality is, 
collectively, the United States spends about $900 billion a 
year on a social safety net, so it is really disappointing when 
you see someone like Mr. Williams come in here, and, you say, 
in spite of over 90 means-tested programs. These are just the 
means-tested programs. These aren't things you are made to buy 
like Social Security or Medicare, but just means-tested 
programs. In spite of $900 billion spent every year, over 90 
programs, you have people who fall through that safety net, and 
it doesn't work.
    So for that reason, I have created a bill called the People 
CARE Act, which would make the program person-centered. It 
would give 4 Republicans and 4 Democrats a year-and-a-half to 
work together, and they could revise the programs. They 
couldn't cut any spending. They couldn't launch new programs.
    And you say, well, why would you even do it? You could do 
things like a lot of people run into in our Federal housing 
programs, which are benefit cliffs. Benefit cliffs often lead 
to people staying trapped in that net or staying at risk of 
losing the housing that they do have because they take an extra 
job or a promotion, and in the long run it doesn't work out. So 
we have to deal with that. Congress has been persistently 
unable to deal with that. It is not that we lack the will. 
Apparently, in the committee structure, there is always an 
excuse, right?
    But it is certainly not that we don't spend enough money--
$900 billion a year. So, an extra 1.3 percent on this isn't 
really the thing that is going to tip it over suddenly, that if 
we spend $13 billion dollars, all of the ills in our Federal 
programs will be cured. I think the reality is that it is 
structural. Mr. Hendricks, perhaps you can highlight why you 
like direct payments to individuals versus direct transfers to 
massive government bureaucracies?
    Mr.  Hendrix. Because I trust people to make decisions for 
what is best for their lives. Giving them freedom and 
flexibility about where they live, the type of living 
arrangements they want, I think that is part of what it means 
to being supported and being people-centered in the kind of 
support that we offer individuals. And I think that people-
centered housing support means that we aren't reinforcing 
patterns of segregation, that we are helping encourage people 
to move to places of opportunity, and that we are not 
disincentivizing good work if you are able-bodied.
    Mr.  Davidson. Yes, thank you for that. And I like that you 
mentioned reinforcing segregation because the history of 
Federal housing programs is, quite frankly, full of overt 
racism. The programs were launched during the FDR era. They 
were launched and sustained in the 1960s, and that has fueled 
whole redlining programs that the private sector has piled 
onto. Even today, the persistence of this has been hard to 
break. And so individuals, to me, seem more empowered to be 
able to choose and just sidestep that.
    Mr. Williams, welcome back. We were talking earlier about, 
in spite of the fact that our nation spends over $900 billion a 
year on a social safety net, unfortunately there are people 
like you. So thanks for coming and giving a face to that, 
because there are people in every one of our congressional 
districts who, in spite of the well-intentioned efforts to run 
these programs, don't benefit from them in the way that they 
are intended to.
    Normally, what happens is Congress doesn't actually go back 
and figure out, well, gee, why did that fail? Why did it break? 
We had over 90 programs. We don't actually get rid of any of 
the programs, or, generally, we don't even really redesign the 
existing programs. Kind of just like today, we are going to 
debate launching a new one, right? They all failed, so instead 
of doing that, let's launch another one. We don't go back and 
do it.
    So my passion is to get this committee going and also to 
find some democratic co-sponsors--Chairwoman Waters would be a 
great one, for example--who would move this bill in a 
bipartisan way. We would have 4 Republicans, and 4 Democrats. 
They would get a year-and-a-half to work together to redesign 
our whole safety net. So you wouldn't just do one program at a 
time. You could go holistically and apply one standard to make 
sure we don't have benefit cliffs, so that if you take a job 
making more money, or you finish your degree and you get 
another job, you are not going to run into, well, if I take 
this I might lose some sort of benefit. And we could redesign 
it so there are on-ramps and off-ramps. I hope we can get this 
done, because it will benefit families like yours. God bless 
you. Thanks for being here today, and thank you all for your 
expertise on the subject.
    Mr.  Williams. Thank you.
    Chairwoman  Waters. The gentlewoman from New York, Ms. 
Ocasio-Cortez, is recognized for 5 minutes.
    Ms.  Ocasio-Cortez. Thank you, Madam Chairwoman, and I 
would like to thank all of our witnesses here for testifying 
today. Mr. Williams, specifically, I want to thank you for your 
powerful testimony, and thank you for bringing your son. And if 
your son was here, I would thank your son, too, for supporting 
his dad.
    Mr.  Williams. Yes, ma'am.
    Ms.  Ocasio-Cortez. I wish that we could talk to you, Mr. 
Williams, and say that your story is an anomaly, but it is 
normal, and, increasingly, it is the new normal. Two years ago, 
I was waitressing in a restaurant, and I know what it is like 
to come back to your house, and, if you can afford that rent, 
to be scared if your lights will be on when you get home, and a 
whole bevy of other issues. Let alone, you have 3 children. You 
said all of them have asthma?
    Mr.  Williams. Yes, ma'am.
    Ms.  Ocasio-Cortez. All 3 of your children have asthma?
    Mr.  Williams. Yes, ma'am.
    Ms.  Ocasio-Cortez. And I am sure that comes with 
healthcare costs as well, right?
    Mr.  Williams. Yes, ma'am.
    Ms.  Ocasio-Cortez. That is rent in and of itself.
    Mr.  Williams. Yes, ma'am.
    Ms.  Ocasio-Cortez. And I am sure the quality of the 
housing stock, or where you have been able to be in your life, 
has impacted and triggered their asthma from time to time as 
well. Is that right?
    Mr.  Williams. Yes, ma'am.
    Ms.  Ocasio-Cortez. Mr. Williams, I have a question. Did 
you ever try to look for ``affordable housing,'' just to find 
that it is not actually affordable at all?
    Mr.  Williams. Yes, ma'am, several times. Several times, we 
tried to go the affordable housing route.
    Ms.  Ocasio-Cortez. And what were some of the rents that 
you saw that were called ``affordable housing?''
    Mr.  Williams. Anywhere from $800 to $1,600.
    Ms.  Ocasio-Cortez. $1,600 a month.
    Mr.  Williams. Yes, ma'am.
    Ms.  Ocasio-Cortez. So if you are making 10 bucks an hour, 
that is not affordable whatsoever, correct?
    Mr.  Williams. No, ma'am.
    Ms.  Ocasio-Cortez. Thank you. So, let's get real because 
we see this a lot in New York City as well. You came to 
Virginia by way of New Jersey, correct?
    Mr.  Williams. Yes, ma'am.
    Ms.  Ocasio-Cortez. So I am sure you know a lot of what we 
are dealing with in New Jersey as well as in New York City, and 
a lot of what gets deemed as affordable housing is not 
affordable. And it ends up being part of sometimes a strategy 
of larger displacement in that these developers get tax breaks. 
They build what is affordable. But a lot of what we hear around 
here is that if we just build more, no matter what, things will 
get better, right? But in New York City, there are 3 empty 
apartments for every 1 person experiencing homelessness. That 
is wrong. And so, while it is not to say that we shouldn't 
build more--there should always be kind of a rejuvenation of 
our housing stock--it is to say that that is not the end-all, 
be-all solution. It is not just about supply and demand because 
there are a lot of things breaking those laws.
    While there are people who say there is nothing that we can 
do, there are 2 things that I think we can do. One, let's talk 
about affordable median income, Dr. Chapple, in densely-
populated cities where high- and extremely-low-income 
households can be found within blocks of each other, like in 
the Bronx, we have one of the lowest-income congressional 
districts in the country right next to one of the richest ZIP 
Codes in the country. So when something like that happens, 
affordability gets distorted because we peg to metrics, like 
the area median income. So, we take the average income of 
anyone in a 10-mile radius. Well, that includes some of the 
richest people in the country, if not the world, and what gets 
deemed as affordable can distort that. Isn't that correct?
    Ms.  Chapple. Absolutely. Median incomes are $100,000, 
$120,000, and that means if you make $50,000, you are not able 
to get enough people qualified.
    Ms.  Ocasio-Cortez. So what do you think would be some 
possible policy solutions that we could consider on the issue 
of AMIs?
    Ms.  Chapple. We need to look at HUD fair market levels, 
and we need to stay on top of that and make sure that we are 
continually adjusting the HUD levels. We need to look at 
affordability. We continually revisit based on the 30 percent, 
50 percent, 80 percent, which many of our programs are catering 
towards certain income streams, particularly $50,000 to 
$80,000, whereas the 30 percent AMI and below are very poorly 
served.
    Ms.  Ocasio-Cortez. Thank you. And further, there are 
expensive housing markets, like New York, where many units that 
are built by developers will go empty tonight. In fact, I have 
an article here saying that 1 in 4 New York City luxury 
apartments is currently unsold. At the same time, some families 
will be checking into shelters tonight, and others will be 
sleeping out in the cold.
    Opportunity Zones created by the 2017 Republican tax bill 
unsurprisingly was another area of a tax giveaway to the rich. 
In fact, last year, the National Association of Home Builders 
testified that, ``The private market is largely unable to 
develop, operate, and maintain rental housing affordable to the 
lowest-income households.'' Ms. Jayachandran, would you agree 
with that statement, based on what you have seen?
    Ms.  Jayachandran. Yes.
    Chairwoman  Waters. Thank you. The gentleman from North 
Carolina, Mr. Budd, is recognized for 5 minutes.
    Mr.  Budd. Thank you, Madam Chairwoman, and, again, thank 
you to our witnesses for being here this morning, or afternoon 
now. I certainly want to agree with the majority that 
homelessness is a real issue facing individuals and families. 
What I find confusing, however, is that we have several pieces 
of legislation up for discussion today, but not a single one of 
them would actually help increase the supply of private-sector-
built affordable housing. So it is unclear to me if temporary 
assistance programs, vouchers, or studies, however well-
intentioned they may be, are a complete solution when the 
supply of housing is not growing to meet greater demand in 
higher populations of renters looking for a place to live.
    And if we are to take an honest look at where homelessness 
oftentimes begins, it is with broken families, poor financial 
habits, and with addiction. So, I am a co-sponsor of H.R. 3077, 
the Affordable Housing Credit Improvement Act, because this 
legislation would increase the housing credit by about 50 
percent. In fact, just yesterday I cut the ribbon at Mocksville 
Pointe Apartments in Davie County in North Carolina, and 66 new 
apartment homes have been built for working families, 
affordable homes, because of this tax credit. So increasing 
this credit is one of the keys to increasing the stock of 
affordable housing in the market, and the housing credit has 
been an effective market-based approach to addressing 
affordable housing and homelessness for over 30 years since it 
was enacted during the Reagan Administration.
    This 50-percent expansion of the credit would help 
construct an additional 14,000 or more affordable homes in 
North Carolina over the next decade. And over the course of the 
program, nearly 5,500 affordable homes have benefited North 
Carolina 13, my district. So, Ms. Jayachandran, can you address 
the underlying supply issue here as it relates to homelessness 
and housing insecurity, and how can market-based solutions, 
like the housing credit, help?
    Ms.  Jayachandran. Thank you for your sponsorship of the 
Affordable Housing Credit Improvement Act. We support that bill 
and are huge fans of the Low-Income Housing Tax Credit. Our 
real estate development platform frequently uses the Low-Income 
Housing Tax Credit to both preserve affordable housing and 
create new housing, and we support the expansion of the 
program. As you know, it has been almost, alone, the single 
biggest driver of new affordable housing production since it 
was enacted in 1986, and the only shortcoming of the program is 
that it hasn't kept pace with the increase in folks who need 
affordable housing. So, thank you for that.
    We also do support H.R. 5187, the Housing is Infrastructure 
Act, and would argue that it, too, creates and motivates new 
affordable housing that the private sector can leverage. The 
investment in the Housing Trust Fund, the investment in CDBG, 
in the Capital Magnet Fund, all do translate to new sources of 
capital for affordable housing production. I think many people 
and groups, including the Bipartisan Policy Center, note that 
tackling the affordable housing crisis is going to take a 
multipronged solution. Low-income housing tax credits are 
certainly one, but it is going to take all sorts of solutions, 
including new capital investments, new vouchers, and new rental 
assistance contracts. It can all be leveraged by the private 
sector for new debt, new equity that finances new units.
    Mr.  Budd. Good. Thank you very much. Mr. Hendrix, any 
additional thoughts on how market-based solutions, like housing 
credits or other solutions, could help?
    Mr.  Hendrix. Market-based solutions are important for 
solving this housing crisis. We cannot solve it without more 
housing. And every new house that is built is essentially a 
layer cake of financing, and adding in more layers to make more 
projects pencil out is best, especially if we can leverage 
nonprofits, faith-based institutions. This is something that we 
believe is very important.
    Mr.  Budd. Very good. Thank you all for your time. I yield 
back.
    Chairwoman  Waters. Thank you. The gentlewoman from New 
York, Mrs. Maloney, is now recognized for 5 minutes.
    Mrs.  Maloney. I want to thank the chairwoman and all of my 
colleagues and the panelists. This is a critically important 
issue. We have heard a lot of great information today. And our 
nation, undoubtedly, is facing a housing crisis. In New York 
City, there is a crisis, too, an enormous one, with very unique 
challenges. Many of our citizens are paying a third of their 
income in rent, many more are paying over half of their income 
in rent, and it leaves very little money for anything else. In 
New York, it has become almost impossible to find affordable 
and available housing. So this hearing is very relevant, and we 
need more affordable units.
    I am a strong supporter of the local income housing tax 
credit, which has helped us put up housing. But just as 
important as putting up housing is helping people like Mr. 
Williams stay in their homes. If you have an affordable place, 
we need to do everything to help them be able to stay there. 
And in cities like New York, some landlords are just beyond 
belief in their cruelty. I have worked with tenants where the 
landlord has turned the heat off for months, forcing them out 
of their homes. I have worked with tenants where the landlord 
firebombed them out of their homes, and this is despicable. And 
I want to ask first Mr. Williams, and then Professor Desmond, 
how do we react to this on a Federal level? Obviously, on the 
local level, there is enforcement, but what can we do on a 
Federal level to stop this outrageous, cruel, disgraceful, 
greedy behavior?
    And I would like to first ask you, Mr. Williams, when you 
mentioned in your testimony that you were you charged thousands 
of dollars for filling out a form, and then they told you, oh, 
by the way, you are not eligible, I think at the very least, we 
could put legislation out there and pass it that says, you 
don't do that to people. You determine whether or not they are 
eligible before you charge them anything. I think that is an 
outrageous abuse. Are there other abuses that you think we 
might be able to address, Mr. Williams? And thank you for your 
really meaningful and insightful testimony.
    Mr.  Williams. Thank you, ma'am. Yes, that was one of the 
issues that we had incurred, that there is no systematic, if 
you will, policy or rule in place to say that when you go to 
apply for a housing unit, that they will tell you that, well, 
there is a security deposit, but what they don't tell you is if 
you qualify or you don't. So they can promise you all the nooks 
and crannies of everything, and there have been several times 
we have gotten into the doorstep at several affordable housing 
units, only to be told 2 or 3 days later, well, Mr. and Mrs. 
Williams, you didn't qualify. So now the question becomes, what 
I have been forthcoming with. Now, what do I do to supplement 
that money that I have given you when I feel as though if there 
is a policy in place that if a family or a resident doesn't 
prequalify, there should be something given back, because you 
don't know what that family or individual has to do with that 
money, because plenty of times, like I said, we have lost 
thousands of dollars. One particular time, I actually had to go 
into my kids' college savings, only to be told that we didn't 
prequalify.
    Mrs.  Maloney. That is terrible.
    Mr.  Williams. Yes, ma'am.
    Mrs.  Maloney. We can change that. I am going to put a bill 
in on that. Professor Desmond, what do you think?
    Mr.  Desmond. I have 2 suggestions. One, the Fair Housing 
Act covers evictions. The data suggests that evictions have a 
disparate impact on low-income communities of color, and 
particularly women. The national data show that African-
American women have eviction filing rates that are twice as 
high as white women renters. So the Federal Government can act 
to enforce the FHA when it comes to the eviction crisis.
    Second, we can do a better job of identifying who is 
responsible for most of the actions in a city like New York. 
Many times, landlords that are doing the evicting, we don't 
know who those people are because they are behind LLCs or are 
other companies. We can do a better job of bringing 
transparency so we can know which property owners are promoting 
stability and which property owners are the biggest evictors in 
a city.
    Mrs.  Maloney. May I get 1 second back on the LLC bill that 
we passed? You hit on something very true, and we have been 
working, the chairlady and myself, to pass a bill that would 
allow law enforcement and others to see who owns these LLCs. It 
was mentioned earlier that a lot of them are vacant, but we are 
having difficulty passing it. There is a huge push back on it. 
It is very relevant. Thank you.
    Chairwoman  Waters. The gentleman from Ohio, Mr. Gonzalez, 
is recognized for 5 minutes.
    Mr.  Gonzalez of Ohio. Thank you, Madam Chairwoman. And 
thank you to all of our panelists here today. Mr. Williams, I 
want to start with you and just thank you for your testimony. 
What you did for your son and your family was very powerful, 
and it was courageous. I have been a Member for just over 1 
year, and I can say without question that your testimony was 
the most powerful testimony that I have heard as a Member of 
Congress, and I can't imagine the struggle and what all you 
have been through. There are families all over the country that 
you are never going to meet, who won't know your name, but they 
are going to benefit from what you did today, and I think you 
can be proud. And so, I just want to thank you for that.
    Mr.  Williams. Thank you.
    Mr.  Gonzalez of Ohio. Shifting to some of the legislation 
we have been asked to consider, one bill is the Eviction Crisis 
Act, and it was mentioned in several of the testimonies. It is 
designed to step in and provide protections specifically for 
folks in your situation, Mr. Williams, both leading into the 
eviction process, but also on the back end when you are coming 
out of it. And so, my first question is to you. In the 
immediate build-up, in the weeks and days prior to the 
eviction, what sort of services existed in your community? What 
sorts of organizations were you aware of that tried to help 
keep you in your home, or did they not exist?
    Mr.  Williams. Some of the steps that went into play, a lot 
of it was nonprofit organizations.
    Mr.  Gonzalez of Ohio. Okay.
    Mr.  Williams. A lot of churches, the Department of Social 
Services. But they can only work with the capacity that they 
have, and tthey have met their full capacity. Churches work on 
donations and people giving back, and so we were reaching out 
to a whole slew of organizations from the Salvation Army, to a 
lot of nonprofit organizations. And I will share just one 
tidbit of information, if I can get it in.
    Mr.  Gonzalez of Ohio. Yes.
    Mr.  Williams. I particularly remember, as I am sitting 
here, I went online and there was what I have come now to 
realize was a scam. There was a certain agency--I can't think 
of the name--who went on the internet and said that they stop 
evictions. I called this guy up, spoke to this guy, and gave 
this guy $300 to stop the eviction. Needless to say, there are 
certain people out there who prey on people who are desperate 
or in this situation. I gave them the $300 only to find out it 
was a scam.
    Mr.  Gonzalez of Ohio. Did you report that to anybody? I am 
certain that we--
    Mr.  Williams. I did.
    Mr.  Gonzalez of Ohio. Yes.
    Mr.  Williams. But unfortunately, it went nowhere.
    Mr.  Gonzalez of Ohio. Okay.
    Mr.  Williams. It was kind of like, when I reported it to 
the local authorities, I actually was told, ``You should have 
known better.''
    Mr.  Gonzalez of Ohio. Wow.
    Mr.  Williams. Yes, sir.
    Mr.  Gonzalez of Ohio. We will follow up after this hearing 
and see if we can help on that front. That is insane. Now, I 
want to shift to sort of the back end. You are trying to get 
back into a home, and you told a compelling story about how you 
are applying, and you are putting money down and not getting it 
back, and things like that. What sort of feedback were you 
getting from the landlords as to why you were getting turned 
down?
    Mr.  Williams. I have been told 3 things, and I kind of 
call it, ``the sandwich,'' if you will.
    Mr.  Gonzalez of Ohio. Okay.
    Mr.  Williams. The first layer of why we were getting 
turned around was the eviction. So, that is the bottom layer of 
your sandwich, right? Next, the meat of it is your credit. So, 
that is the second layer. Now, we are looking for the toppings 
on this. I was told by several different agencies that we had 
to meet 6 times--6 times!--whatever the monthly rent was for 
the housing unit. So when they go to look at all of the 
criteria, you are either evicted, or not even an eviction on 
your credit, or you don't meet the monthly 2 to 3, 4, 5, 6, and 
I was even told that shouldn't have even been.
    Mr.  Gonzalez of Ohio. Yes.
    Mr.  Williams. But that is how it was going.
    Mr.  Gonzalez of Ohio. Thank you. And one thing I will say 
before yielding back is, I think there is a lot in the Eviction 
Crisis Act that would help and would be useful. I don't know 
that it addresses everything that you are talking about. I 
don't know that it is a perfect solution, and there probably 
isn't one, or else we might not be here. But I do want to thank 
you again for your testimony, and for all the work being done 
on this issue. I yield back.
    Mr.  Williams. Thank you.
    Chairwoman  Waters. The gentlewoman from North Carolina, 
Ms. Adams, is recognized for 5 minutes.
    Ms.  Adams. Thank you, Madam Chairwoman, for convening 
today's hearing. And to all the witnesses, thank you very much 
for being here today. Ms. Chapple, while there are obvious 
benefits to mixed-income neighborhoods, including lower poverty 
rates, de-concentration of poverty, and increased economic 
opportunity, it can also create negative consequences. 
Gentrification can result in an increased demand for housing, 
which can raise housing costs and lead to the pricing out and 
displacement of longtime residents. My question is, how can 
local communities better empower their most vulnerable 
residents when it comes to weathering the changes that come 
along with gentrification, and are there any communities doing 
things well or implementing effective strategies?
    Ms.  Chapple. You mentioned mixed-income communities, and 
we went through an experiment in this country with HOPE VI 
redevelopment into mixed-income communities. And around many of 
those HOPE VI redevelopments, actually, gentrification 
happened. Folks got displaced, and communities transformed 
themselves. So when we are doing these redevelopments, we 
really need to think about the chain of events that we are 
setting into motion. And we need to think early about how we 
can acquire land, acquire multifamily buildings, and keep them 
perpetually affordable as the neighborhood changes around them.
    Ms.  Adams. Okay. In terms of the Federal Government, what 
role can the Federal Government play in collecting and 
disseminating best practices for communities that experience 
gentrification to help prevent displacement in these 
communities?
    Ms.  Chapple. There are many different anti-displacement 
policies that could be used. One of the things about 
displacement is it takes very different forms in high-cost 
versus low-cost communities, so you can't just pass down a menu 
to each place. What I would recommend is that the Federal 
Government encourage municipalities to innovate with best 
practices that have been shown to work in other places, like 
acquiring multifamily apartment buildings to keep them stable.
    Ms.  Adams. Great. Thank you. Dr. Desmond, thank you for 
your commitment to shedding light on our national affordable 
housing crisis and peeling back the layers of how evictions and 
gentrifications impact our communities. And according to your 
2018 study, in my district of Charlotte, North Carolina, the 
eviction rate is 6.15 percent, almost double that of other peer 
cities in our State and around our county, Raleigh and 
Nashville. Out of 100 cities, Charlotte ranked 21st, and has a 
rate above the national average. At the time the study came 
out, you stated that you haven't studied why Charlotte's 
eviction rate is higher than comparable cities, but you said 
that the South in general appears to have higher eviction 
rates. Have you had an opportunity to study this rate 
difference, and do you have any idea of what might be going on 
here?
    Mr.  Desmond. I have begun looking into the issue. We need 
to do more to understand who is doing the evicting. It reminds 
me of a line from the novel, ``There There,'' by Tommy Orange. 
There is a scene where someone is describing suicide on Native 
American reservations. And they say these kids are jumping out 
of a burning building, and we think the problem is that they 
are jumping. But we need to understand better who set the fire. 
We have also looked into what laws work, and they do seem to 
make a difference. So when evictions are more costly and they 
take longer, property owners tend to use eviction court less 
than they do when it is cheap and efficient.
    Ms.  Adams. Okay. Thank you. Ms. Jayachandran, what are the 
greatest challenges that you face when trying to preserve 
affordable housing in gentrifying communities?
    Ms.  Jayachandran. The resources to do it. In gentrifying 
communities, often the prices are higher as a result of the 
economic boom. And in order to be able to purchase that 
building and renovate it, you have to meet the market price. We 
believe in the market and market dynamics, but it requires 
coming up with the funds, the same funds that somebody who 
might want to make it condominiums would have to come up with. 
It is hard to do that when we are going to maintain the rents 
affordably because we are not going to be able to repay a high 
cost of capital. So cobbling together sources of capital to 
keep a property affordable is the biggest challenge.
    Ms.  Adams. Great. Thank you very much, Madam Chairwoman. I 
yield back.
    Chairwoman  Waters. Thank you. The gentleman from 
Tennessee, Mr. Rose, is recognized for 5 minutes.
    Mr.  Rose. Thank you, Chairwoman Waters, and thank you to 
all of the panelists for being here today. And, Mr. Williams, 
particularly, thank you for being here. As I look out at the 
other panelists, and not to take anything away from any of 
them, but I suspect you are the only one for whom, at some 
level, it is not part of your job to be here. So I commend you 
for taking time to be here and present your story today.
    I know that I have said this before, but it bears 
repeating. With so many Federal programs, I think we focus too 
much on the quantity of our inputs rather than on the quality 
of the outcomes. I respectfully disagree with some of my 
colleagues on the other side of the aisle, who have stated that 
the only way to solve this problem is with a huge injection of 
Federal funding. Subsidizing the payment for affordable housing 
does not reduce the price or cost of housing. Indeed, it almost 
certainly increases the price. In fact, housing in States with 
restrictive zoning and land-use rules tends to cost more. 
Federal taxpayers are, in essence, being expected to subsidize 
burdensome and bad local policies. We need solutions that solve 
the problem, not temporary fixes that mask it.
    One of the biggest drivers of housing unaffordability is a 
shortage of housing. Mr. Hendrix, some on this committee might 
argue that building more housing will not help low-income 
Americans since newer housing tends to be more expensive. Are 
you able to provide any information about how increasing the 
supply of housing helps at all income levels?
    Mr.  Hendrix. There is evidence from communities across 
this country that when you do add new housing supply, at some 
point the housing does become more affordable. The question is, 
are we actually loosening enough restrictions in enough places, 
and the answer is no. The examples that we have are not 
frequent enough. We need more examples of more housing supply 
being freed up. We need to streamline permits. We need to 
loosen zoning restrictions. And that is going to happen at the 
State and local level.
    I think that there are examples, perhaps best of all from 
Texas. There is one instance where Austin, closer to downtown, 
did loosen some restrictions and allowed more housing 
development, and rents did flatline for a time. Of course, the 
problem is when you just touch areas closer to downtown, you 
don't address the suburbs, you don't address some of the 
wealthier neighborhoods, and often you do get those fears of 
displacement and gentrification affecting poor neighborhoods, 
where the housing that could have gone into wealthier or 
higher-opportunity opportunity neighborhoods now just is forced 
into poorer neighborhoods or neighborhoods with less 
opportunity.
    Mr.  Rose. Thank you. Ms. Jayachandran, you highlight a 
specific case in your testimony, the Meridian Manor, in which 
the National Housing Trust used Low-Income Housing Tax Credits, 
or LIHTCs. According to the Tennessee Housing Development 
Agency (THDA), only 1 of every 3 LIHTC applications can be 
fulfilled in Tennessee. That is why, like Representative Budd, 
I am a co-sponsor of H.R. 3077, the Affordable Housing Credit 
Improvement Act of 2019, to increase the credit by 50 percent. 
Ms. Jayachandran, can you explain further and further address 
the importance of expanding the overall supply of housing, and 
how a solution, like increasing the housing credit, would be 
helpful to address homelessness?
    Ms.  Jayachandran. Sure. As I mentioned earlier, we are 
supporters of the Affordable Housing Credit Improvement Act, 
and thank you for your sponsorship. The Low-Income Housing Tax 
Credit, since it was enacted in 1986, has been one of the 
largest drivers of affordable housing production in this 
country, and one of the largest motivators for new construction 
as well as preservation. To your point from Tennessee, the 
credit has not kept pace with the need since it was enacted in 
1986. But for the expansion that happened last year, the bill 
sponsored by Senator Cantwell, the program hadn't been expanded 
since its initial enactment. Since then, obviously we have seen 
population growth, and we have seen an increased need for 
affordable housing. The Low-Income Housing Tax Credit helps 
create and preserve scarce affordable housing units that can be 
used for formerly homeless, and new units are needed. We just 
are not keeping abreast of increases in population.
    Mr.  Rose. Thank you. As some of my colleagues have already 
stated here today, we should be doing more to lower barriers to 
housing construction at all levels of government: local; State; 
and Federal. And with that, I yield back.
    Chairwoman  Waters. Thank you. The gentlewoman from 
California, Ms. Porter, is recognized for 5 minutes.
    Ms.  Porter. Thank you. I am the first single parent of 
young children to serve in the Congress, and I want to state 
for the record that my family is not broken. We are a strong 
and cohesive family who loves and cares for each other.
    In my district, the Orange County United Way has created a 
cross-sector public-private partnership that is called Welcome 
Home Orange County. And it encourages rental property owners to 
accept HUD housing vouchers, and HUD officials have commented 
at the regional level that they would like to see this public-
private partnership model used as a template for national 
expansion. Basically, what it does is provide financial 
assurance and damage mitigation funds to landlords, and 
provides support services, including help with furniture, and 
additional financial stability tools to potential renters. Mr. 
Williams, would a program like Welcome Home Orange County have 
potentially helped you avoid wasting thousands of dollars in 
application fees and hundreds of hours spent identifying and 
applying for apartments?
    Mr.  Williams. Yes, ma'am.
    Ms.  Porter. Thank you. Mr. Hendrix, I hear you absolutely 
on the need for increasing housing supplies and for zoning 
revisions. This is an all-approach need. But I want to ask you 
specifically, do you think a public-private partnership, like 
what I described, could be a useful tool that would benefit 
property owners by encouraging them to accept HUD Housing 
Choice vouchers, and that it would also be of assistance to 
potential residents?
    Mr.  Hendrix. I am very much in favor of public-private 
partnerships, and this seems like an encouraging model. I would 
love to learn more.
    Ms.  Porter. Thank you. HUD officials emphasized in my 
district that they are using Welcome Home Orange County in 
partnership with the United Way particularly to help children 
who are about to age out of foster care programs, and are, 
therefore, at very high risk of becoming homeless. HUD has a 
new program called Foster Youth to Independence that is 
providing Housing Choice vouchers to those aging out of foster 
care, and Orange County is one of only 11 counties across the 
country that has received these Foster Youth to Independence 
vouchers in the initial phase of this program. And it has been 
so far extremely successful, and it is a very necessary 
program.
    Mr. Desmond, I read, ``Evicted.'' And I have had the 
opportunity to hear you speak at my university campus when I 
was a professor. Your work is a piece of outstanding 
scholarship. You talk about displacement and the effect of 
eviction on a lot of different kinds of individuals. Could you 
speak to the need for a housing support program for young 
people, like foster children, who are about to be living on 
their own for the first time?
    Mr.  Desmond. On any given day in America, there are about 
400,000 children in foster care. These are some of our most 
vulnerable children, and we have a choice. When they age out of 
foster care, we can send them into poverty and eviction and 
homelessness, or we can send them into stability and economic 
mobility. So expanding the opportunity for these young people 
to start off with a platform that allows them to reach their 
full potential seems to make a lot of sense to me.
    Ms.  Porter. Thank you. I yield back.
    Chairwoman  Waters. Thank you very much. They have called 
votes on the Floor. We are going to try to get through as many 
Members as we can before we have to leave.
    The gentleman from Wisconsin, Mr. Steil, is recognized for 
5 minutes.
    Mr.  Steil. Thank you, Madam Chairwoman. Thank you for 
calling today's important hearing. I think my colleague, Ms. 
Porter, actually brought up a spectacular point as it relates 
to foster children, and I would like to return to that probably 
at a future point in time. That is a spectacular point that you 
made. I would like to dive in. I have also read, ``Evicted,'' 
and, compliments of the Library of Congress, have a copy at my 
desk. The examination that you did, in particular, at the one 
site at the mobile home park borders my district. College 
Avenue is the division between Congresswoman Gwen Moore's 
district, the City of Milwaukee, and the City of Oak Creek on 
the south side of that street. It was very interesting to read.
    One part that I found probably the most interesting of all 
was in your research, which seemed a bit counterintuitive at 
first, which is the difference in pricing between lower-quality 
housing stock and really in the scale of Milwaukee, not that 
far away, nicer neighborhoods, nicer housing stock. And the 
delta between those two price points was not as large as you 
might think off of an economics 101, back-of-the-envelope 
supply and demand. You commented a few times in the book what 
you saw driving that disparity.
    Mr.  Desmond. This is a very important point. If you rent a 
2-bedroom apartment in Milwaukee, Wisconsin, at the median 
rent, you are going to pay about $650 a month. If you rent that 
same apartment in the poorest city, the poorest neighborhood in 
that city, you are going to be paying about $600 a month. You 
get a lot worse housing. You get a neighborhood that is 
completely different, and you don't pay that much less for it. 
And so the idea that a lot of folks are living in disadvantaged 
communities because they can only afford to isn't exactly borne 
out by the data.
    Mr.  Steil. Do you think that if we, say, increased supply 
in the City of Milwaukee, would you be able to drive down those 
prices, because back-of-the-envelope kind of economics 101, you 
would think that would be the case. But some of your research 
points out that that might not be the case.
    Mr.  Desmond. Cities like Milwaukee do not lack housing 
supply. Neither does Tucson, Arizona or Toledo, Ohio. There are 
places that have experienced a surge in rents that have enough 
supply. And so for those cities, it is not exactly a question 
of just building more housing, and obviously we will see kind 
of a reduction in rent. Something else is going on besides the 
supply and demand dynamic.
    Mr.  Steil. Thank you. Mr. Hendrix, can I jump over to you? 
How would you respond to that, because I think that is an 
interesting argument here as we look towards a supply-side 
solution to drive down these costs? How do you kind of 
accommodate that disparity that we saw in Mr. Desmond's 
research?
    Mr.  Hendrix. He is not wrong that there are different 
housing markets across the country. So, some areas do have a 
severe mismatch between supply and demand. Others don't. Others 
have too much housing, not too little. The challenge is, in 
places where there is more demand and less supply, making sure 
that they can fall in line together. In places where there is 
actually a lot of housing stock, we need to make sure that: 
number one, if it is close to job centers, that it remains 
affordable; and number two, that there is a variety of housing 
types because sometimes the housing stock that is available is 
a mismatch with the housing stock that is actually needed, and 
that those who want to be able to access affordable housing 
could actually be able to access it. And I think he is 
absolutely right.
    Mr.  Steil. It is an interesting dichotomy because I think 
we definitely see that play out in some of our larger cities in 
the United States, because if you look towards communities in 
the greater Milwaukee area in southeast Wisconsin, it is a 
different dynamic that plays out. And I think this is where 
sometimes the affordable tax credits come into play for adding 
in quality housing stock that becomes affordable in these 
communities. I just thought it was a really interesting point 
you brought up. Ms. Chapple, if I can, earlier on you were 
referencing work building tiny houses. Do you recall what city 
that was in?
    Ms.  Chapple. That is in Alameda County, outside of 
Oakland.
    Mr.  Steil. Okay, outside of Oakland. And so the area that 
you were doing that in, would you be able to build those tiny 
houses elsewhere in that county on the private side, or would 
you be blocked from zoning regulations for building houses such 
as this tiny house, but for an exemption in the zoning laws 
that maybe existed in this county in California?
    Ms.  Chapple. So, guess what? Even that project that 
Alameda County is doing, the only hurdle they have hit is the 
zoning, and so they are working on that. But there is a need 
for reforming local codes to make these types of dwellings 
possible.
    Mr.  Steil. I think that is a really good point as we look 
as to what the local government organizations can do to play a 
role in trying to drive down the cost of new housing stock. I 
appreciate everyone being here. And, Madam Chairwoman, I 
appreciate you holding today's hearing. I yield back.
    Chairwoman  Waters. Thank you. The gentlewoman from 
Michigan, Ms. Tlaib, is recognized for 5 minutes.
    Ms.  Tlaib. Thank you, Madam Chairwoman, and thank you so 
much for teaching all of us so much about our homeless 
neighbors across the country and the nation, and the importance 
of trying to address it head on with a sense of urgency. I so 
appreciate your leadership.
    Mr. Williams, I urge my colleagues in this committee to 
really read your testimony that you submitted to this 
committee. I think Kelly and your three children, including 
Jaylen, who, by the way--yes, we are Members of Congress, but 
many of us are big sisters, grandmothers, and mothers, 
including me--has been very spoiled back there. I think I saw 
him chucking a bag of Skittles. And he has framed pictures with 
him and Congresswoman Joyce Beatty already in a bag. He has 
some tee shirts. You probably have a free daycare here in this 
committee forever. So, thank you so much for your courage to 
give your testimony. And thank you, Mr. Desmond, for helping 
put a human face to what is happening across the country with 
folks getting displaced.
    What I wanted to talk about is I want to lead with 
compassion when I look at these issues, and the Housing First 
approach has been supported by Republican Administrations and 
Democratic Administrations in the past. It is the way forward, 
and understanding we need to provide homes. Looking at your 
testimony and seeing your mother-in-law getting sick, the fact 
that you were only offered a security guard shift every other 
week, understanding that a Housing First approach would have 
helped you get the wraparound services you need to stabilize in 
that way.
    Let me talk to all of you about what isn't working: 
Opportunity Zones. Detroit, 13 districts strong, I have the 
third-poorest congressional district. Close to half of my 
residents pay 50 percent, or 30 to probably 60 percent of their 
income towards rent. You were paying, I think, Mr. Williams, 50 
percent of your income towards rent. And one of the things that 
has been promoted--they don't want to talk about Housing First 
and putting money towards something that actually has been 
working, but something like Opportunity Zones, which is very 
misleading. I don't know if all of you know about Opportunity 
Zones, and, Madam Chairwoman, I would like to submit for the 
record an article, ``How a Tax Break to Help the Poor Went to 
NBA Owner, Dan Gilbert.''
    Chairwoman  Waters. Without objection, it is so ordered.
    Ms.  Tlaib. Thank you. The rationale around the Opportunity 
Zones program is that it will incentivize investment in 
economically distressed areas, but the majority of Opportunity 
Zones are either in or near gentrified neighborhoods where 
longtime residents, increasingly, no longer have access to 
affordable housing. And one of the things that I am disturbed 
about, unlike other tax credits and programs, is what is 
required by those that so-called qualify.
    Mr. Williams, check this out. Are they required to say how 
many jobs they created? No. Do any of you know this? You, Ms. 
Chapple, right? They are not required to report back to us how 
many jobs are created with Opportunity Zones, correct?
    Ms.  Chapple. Yes.
    Ms.  Tlaib. It is a straight-up capital gains tax break. 
Are they required to show us how many units of affordable 
housing?
    Ms.  Chapple. No.
    Ms.  Tlaib. No. I don't know, how about, oh, are they going 
to be environmentally conscious projects?
    Ms.  Chapple. No special effort.
    Ms.  Tlaib. No. How about how much of the capital gains tax 
break will be reinvested back into the community?
    Ms.  Chapple. No accountability.
    Ms.  Tlaib. No. And what dangers and concerns have you seen 
while relying on a handful of Wall Street, Quicken Loan, 
Silicon Valley investors to address a lack of investment in 
affordable housing? Opportunity Zones rely on those folks to 
say that. Would you agree that the concerns of the Opportunity 
Zones program could exacerbate the disappearance of affordable 
housing and fuel gentrification?
    Ms.  Chapple. Yes, I would agree.
    Ms.  Tlaib. Do any of you know of communities right now 
that have been designated as Opportunity Zones that didn't 
actually qualify? I have two in my district. They chose two 
census tracts, which are the wealthiest in my district, the 
wealthiest in the City of Detroit, for Opportunity Zones for 
these tax giveaways, where poverty among children actually 
increased in my district in these areas. And instead, 
billionaire Dan Gilbert was able to sway some of the folks on 
the State level, and even on the local level in the City 
administration, to look the other way, and illegally--I will 
use that word--illegally designate these census tracts that do 
not meet poverty guidelines. And they get it with no 
accountability. I have no idea how it is going to help our 
communities. It is a straight-up tax giveaway that isn't 
working, but we are going to go ahead and criticize Housing 
First programs that actually do have accountability, that 
actually are working in communities?
    I strongly disagree, and I really do appreciate my 
chairwoman bringing this forward and giving all of you a voice. 
Thank you again, Mr. Williams. Thank you.
    Chairwoman  Waters. The gentleman from Texas, Mr. Green, 
who is also the Chair of our Subcommittee on Oversight and 
Investigations, is recognized for 5 minutes.
    Mr.  Green. Thank you, Madam Chairwoman. I thank the 
witnesses for appearing. I would like to move quickly to the 
area of eminent domain as the latest tool to accelerate 
gentrification. Generally speaking, this is what can happen. 
There is a new baseball stadium to be constructed. There is a 
need to purchase property. The municipality has to pay the 
worth of the property, but the worth that is paid is the worth 
that a property has prior to the stadium being built. Persons 
around the stadium who are not going to have their land taken, 
will sell their land for a lot more than the persons who will 
make the sacrifice and sell their land. Ms. Chapple, I see you 
nodding. Would you kindly give some additional thoughts in 
terms of how this impacts gentrification?
    Ms.  Chapple. When redevelopment like you are describing 
happens, there is a windfall profit that happens to properties 
around the area. So, you may find that people are selling now, 
and often, they have to evict their current tenants in order to 
sell the property, or you will find that in neighboring 
dwellings, rents are going up very quickly as the land values 
have increased for everybody in that area. So the landlords 
want to be able to make their own windfall profit.
    Mr.  Green. I am looking at legislation in this area. Are 
you a person who might want to have some input into such 
legislation?
    Ms.  Chapple. I would be happy to chat with you.
    Mr.  Green. If there is anyone else who would like to chat, 
I would be honored to chat with you as well. I am moving 
quickly now to another area. There seems to be the notion that 
we can do more for the poor with less, but that the wealthy 
need more to do more. I am posing this proposition because it 
seems to me that there is a desire to solve all of these 
problems without additional funds from the Federal Government. 
So I ask, do you believe that there will have to be some 
additional funds from the Federal Government to solve these 
problems that we have been talking about? Are there programs 
that we can just eliminate to the extent that we won't need to 
have any additional Federal dollars? Would anyone like to 
respond?
    Ms.  Jayachandran. I agree with you that more Federal 
investment is needed. I alluded earlier that if you take 
Project-Based Section 8 as an example, that was a program that 
was repealed in 1983, and the money that Congress appropriates 
today is just for contracts that were awarded since then. We 
have not created a new rental assistance program since 1983 for 
all the new families that we have minted both through 
population growth and through greater income disparity. We talk 
about ``subsidy,'' but we really should be talking about 
``investment.'' We invest in our national priorities. We invest 
in transportation. We invest in education. We invest in 
national defense. We need to invest in housing.
    Mr.  Green. Anyone else?
    Mr.  Desmond. I would add that we spend every year much 
more money on homeowner tax subsidies than we do on direct 
housing assistance to the needy. We are not in a housing crisis 
for lack of resources. We lack something else. The data on 
Housing First clearly indicates that it is a good investment, 
and it costs less to run the program than not to invest. So, a 
deeper investment in a Housing First model is actually a cost-
savings mechanism, not an extra spending mechanism.
    Mr.  Green. I am going to yield back, since we are running 
short on time.
    Chairwoman  Waters. Thank you very much. The gentlelady 
from Massachusetts, Ms. Pressley, is recognized for 5 minutes, 
and then everybody should rush to the Floor. There are no more 
minutes.
    Ms.  Pressley. Thank you, Madam Chairwoman. Our very first 
full committee hearing centered on the homelessness epidemic, 
and the issue of housing has remained a priority ever since 
then on this committee, and I am grateful for your leadership. 
We speak often of the American Dream. The reality is that most 
Americans struggle in order to realize the American Dream, 
which means that what is synonymous with the American 
experience is hardship. It is something that is transcendent.
    And so, Mr. Williams, I want to thank you for being here 
today. You in a moment removed the shame that millions are 
experiencing by so bravely sharing your story, and you also are 
challenging the narrative because of the constant stereotyping 
for whom is vulnerable to eviction, when so far as I can tell 
and the data supports, this is an epidemic. And, in fact, I 
would even consider it a moral crisis.
    Families are not vulnerable to addiction because they are 
just broken. We have broken families because of broken systems 
and broken promises, and, I think, because of a deficit of 
empathy. When your son Jaylen said to you, Dad, you didn't do 
anything wrong, he was exactly right, because you are 
representative of the many admirable, honorable, hardworking 
people for whom life just got in the way, because hardship is 
transcendent. And it is now incumbent upon us to make sure that 
more people in the midst of that American struggle can recover 
in order to realize the American Dream.
    Professor Desmond, you have rightly said that eviction 
isn't just the condition of poverty. It is a cause of poverty. 
Eviction is a direct cause of homelessness, but it also is a 
cause of residential instability, school, and community. 
However, the lack of data around this issue is stark. It seems 
that when we are choosing to know as little about the scale of 
the addiction crisis as possible, we have absolved ourselves of 
the responsibility to act. Professor Desmond, very briefly, why 
does data matter?
    Mr.  Desmond. Without data, we design policy in the dark. 
We do not know the size of the programs or the effect of the 
programs that work.
    Ms.  Pressley. And many believe that this eviction crisis 
is limited to private rentals. HUD has certainly not bothered 
to provide evidence to the contrary, but you have, Professor 
Desmond. So what is your data collection showing about the 
reality of evictions in public housing?
    Mr.  Desmond. By our estimates, public housing is 
responsible for filing about one 1 out of 24 eviction filings. 
So if that is generalizable to our large estimate, it means 
that public housing authorities file about 428 evictions every 
day in America. We also found that public housing authorities 
serially evict file, which means that the same family in the 
same unit is filed for eviction month after month after month. 
In many public housing authorities, according to our 
statistical models, living in a public housing unit actually 
increases your chances of being serially evicted by about 17 
percent.
    Ms.  Pressley. Wow. And HUD does not use eviction rates as 
a tool for grading public housing authorities (PHAs), correct?
    Mr.  Desmond. Correct.
    Ms.  Pressley. Okay. We know eviction laws and processes 
vary throughout the country. Professor Desmond, what are some 
of the trends that you see emerging?
    Mr.  Desmond. Housing laws are really variegated all across 
the United States. What we have found is that when it costs 
more to evict someone, landlords use eviction court less. For 
example, when the filing fee for an eviction is above $200, 
there is a 15 percent decrease in serial evictions. When 
landlords who are LLCs or companies are required to hire 
attorneys, there is about a 30 percent decrease in serial 
evictions. Just briefly, serial evictions really matter for 
your bottom line. They increase a family's housing costs by 
about 20 percent because of late fees and added court fees. So 
it is not just the indignity of going to eviction court over 
and over again. It really has a financial cost as well.
    Ms.  Pressley. Thank you, Professor Desmond. I represent 
the Massachusetts 7th Congressional District, and we are one of 
two States that actually do have right-toshelter laws. But when 
public housing tenants who face evictions are ineligible, it 
simply isn't enough. That is why I have worked with advocates 
across my district to develop my bill, the Housing Emergencies 
Lifeline Program, or the HELP Act. The HELP Act includes grants 
for emergency housing assistance, funding for right to counsel, 
the development of a HUD eviction database, and changes to the 
credit reporting of evictions. When every 4 minutes, a 
household faces eviction, there is no shortage of families that 
I believe will benefit from this legislation. Thank you.
    Chairwoman  Waters. The committee will stand in recess for 
Floor votes. There are two votes on the Floor, and we will 
return as quickly as possible. Thank you.
    [recess]
    Chairwoman  Waters. The committee will return to order.
    The gentleman from Virginia, Mr. Riggleman, is recognized 
for 5 minutes.
    Mr.  Riggleman. Thank you, Madam Chairwoman, for calling 
this hearing today. And, first and foremost, I want to thank 
all of our witnesses for your passion on this issue and 
dedication towards finding a solution. I think far too many 
people take for granted the fact that they have a home to sleep 
in, live in, and spend time with their families in, especially 
during cold months like January, where shelter can really be 
the difference between life and death.
    And, Mr. Williams, I want to let you know something. I live 
1 hour and 15 minutes from you. I don't know if you are on the 
east side or west side of Richmond, or if you are in the middle 
of Richmond. I live right near Charlottesville, right on the 
west side of Charlottesville. So here is what I ask of you 
today: I would hope that you would kindly take the time to have 
a coffee with me, if I could come visit? So I would like to get 
my staff with you, and I would like to come visit you in 
Richmond and have a sit-down with you. And if you want to talk 
one-on-one, I would love to do that.
    Mr.  Williams. Yes, sir.
    Mr.  Riggleman. If that is okay?
    Mr.  Williams. Yes, sir, young man. We can do that.
    Mr.  Riggleman. Thank you, and thanks for calling me, 
``young man.'' That has not happened in years.
    Mr.  Williams. Yes, sir.
    [laughter]
    Mr.  Riggleman. I think my dad calls me that sometimes. I 
love it. But I want to tell you a couple of things that struck 
me. You talked about rent. I have a lot of questions here, but 
I just want to talk to you for a second. In 1994, I was an E-3 
in the Air Force, and we had to live off base because they 
couldn't find base housing. So even with BAH, I got basic 
allowance for housing. I thought, I am going to be rich, right? 
I was 23-years-old. This check is going to be huge, and our 
rent was $499 a month without utilities. And I remember we had 
to pay--it was 1993, and I lived in New Jersey, and I saw that 
you were from New Jersey--I was stationed at McGuire Air Force 
Base. In 1993, we are sitting there, and my wife and I have 2 
kids, and we got our check after taxes. Our first check was 
$919. And I remember looking at my wife, and really, and I am 
not trying to be vulgar. I said, ``Honey, we are screwed, 
right? We can't even make our bills.'' At that point, we chose 
to go on food stamps, WIC. I got a second job as a professional 
mover, and it was everything we could tdo o just keep our 
housing. And I have never felt such terror with 2 kids as I did 
at that time.
    You are in Richmond right now, and when I hear these types 
of things, I wonder why all of us aren't in tune that there has 
to be a basic social safety net, because I wouldn't be sitting 
in Congress today if I didn't have that safety net. And in 
explaining that, right, whatever side of the aisle you are on, 
it is absolutely bizarre to tell people, listen, if it wasn't 
for food stamps, WIC, Air Force housing assistance, basic 
allowance for housing, and all of the help that we got, I 
couldn't afford to live anywhere. So I don't think there is 
anything wrong with saying that I wouldn't be here if we did 
not have a social safety net in the United States of America. 
That being said, there is another thing as being a veteran, and 
I cannot wait to come. I am going to come see you in Richmond. 
We are. And coffee is on you, by the way. But I will get lunch.
    Mr.  Williams. Yes, sir.
    Mr.  Riggleman. So my question to all of you here is that 
not only do we have what seems like a homelessness issue with 
anybody who is trying to struggle, but in my case, I have been 
also trying to help veterans, based on my background. And that 
veterans' issue, I don't know if we have talked about that a 
lot here, but my question is, I want to ask all of you because 
we only have 2 minutes. I want to ask you, and I will start 
left to right. What can we do on the veterans' side also? There 
are programs that are corollary, right? Are they almost the 
same, or are there some specific things that we can do also to 
help? And I will start to the left, Ms. Chapple, and we will 
start with you and head on down.
    Ms.  Chapple. We have heard mention of Housing First, the 
connection of housing to other kinds of expenses, like 
particularly healthcare. So to the extent that we can help 
veterans with housing, it is going to lead to healthcare 
savings in the long run.
    Mr.  Riggleman. Right, and I will ask Mr. Desmond, have you 
seen any veterans' programs that we could sort of mirror, or 
are there any programs we can mirror from the civilian side to 
the veterans' side, or do you see any crossover there with 
programs for homelessness, sir?
    Mr.  Desmond. Reducing veteran homelessness is something we 
should be very proud of. We have made massive steps in reducing 
veteran homelessness. I will point you to one public housing 
authority, and that is Houston, because I believe they have 
housed over 3,500 veterans who struggle with housing 
unaffordability. They have done a really great job in that 
City.
    Mr.  Riggleman. Yes, sir. Lynchburg, Virginia, which Mr. 
Williams will know, is not too far from Richmond, a little 
ways, right, but not too far, and they are starting a lot of 
voluntary work where they are combining government grants with 
private grants for better housing. And, Ms. Jayachandran, you 
have unique challenges that you face for maintaining affordable 
housing, things that you do. I would love to hear your 
perspective also on the veteran problem on homelessness, if you 
could?
    Ms.  Jayachandran. Sure. I support 2 solutions: one, VASH 
vouchers for veterans; and two, the permanent supportive 
housing model, wraparound services related to Housing First. I 
would also add since you mention you are from Charlottesville, 
my organization with the local Piedmont housing organization in 
Charlottesville owns Friendship Court Apartments.
    Mr.  Riggleman. Yes, I was there.
    Ms.  Jayachandran. We have owned it since 2001, and we 
received with Piedmont a recent allocation of Low-Income 
Housing Tax Credits from VHDA, the largest 9 percent allocation 
in the last round.
    Mr.  Riggleman. Thank you so much, and I'm sorry, Mr. 
Hendrix, that I didn't get to you. But thank you all so much 
for your participation. I will see you soon, Mr. Williams, 
okay?
    Chairwoman  Waters. Thank you. The gentleman from Florida, 
Mr. Lawson, is recognized for 5 minutes.
    Mr.  Lawson. Thank you, Madam Chairwoman, and I would like 
to thank the committee for the testimony today. And, Mr. 
Williams, I was really taken by your testimony, but when I 
looked at your son, it brought back a flashback from the time 
that my family was homeless for 5 years. We lost everything in 
a fire, and there were no safety net programs around during 
that time. Either you stayed with relatives, or you moved from 
place to place, and I remember moving 5 times. And I think 
about the mental health issues that it might cause for your son 
and others with something like this happening. And so, I just 
had a major flashback, when you were testifying, because it 
meant a whole lot.
    But I do have something to follow up from what you stated. 
According to the National Coalition for the Homeless, veterans 
in poverty have the highest chances of experiencing 
homelessness of any group, and approximately 25 percent of our 
homeless population in the Jacksonville area that I represent 
in Florida are veterans. This is unacceptable. What incentives 
could we really provide for them to conduct more outreach and 
provide a more permanent housing solution to our nation's 
veterans? As a politician, one of the things that we always say 
when we are running for office and come in contact with a lot 
of veterans, and everyone on the committee, we say, ``We are 
going to take care of you. We appreciate what you have done. 
Thank you for your service.'' And then we look, and I know I 
have heard the chairwoman talk about the veteran population in 
California, but I really have a higher veteran population in 
Jacksonville, that is on the streets experiencing homelessness.
    I want to start on my left here, Ms. Chapple, and go down 
the line and see if everybody would care to comment on that.
    Ms.  Chapple. Our homelessness problem goes up and down 
with the economic cycle, and right now we are at a point where 
veteran homelessness is a constant share, and I just think it 
is quite tragic.
    Mr.  Lawson. Mr. Desmond?
    Mr.  Desmond. I think we could all agree on that, and I 
think that when you look at the size of the highest-evicting 
places in the United States, many of those places are places 
with military bases, like North Charleston, South Carolina, 
outside of Richmond Virginia. And so, I think that there might 
be a correlation between concentration of veterans and housing 
instability.
    Mr.  Lawson. Ms. Jayachandran?
    Ms.  Jayachandran. Likewise, we absolutely need more supply 
of units. But if at the same time that we are constructing new 
units, we are losing affordable housing units, we are just 
treading water and staying in the same place. We have to be 
preserving every unit of affordable housing and creating new 
units. And the best way to do that is investing in vouchers and 
in project-based rental assistance in addition to the Low-
Income Housing Tax Credit. But here today, investments in VASH 
vouchers really translates into creating and preserving units 
for veterans and for all renters who need it.
    Mr.  Lawson. I am going to skip Mr. Williams and go to Mr. 
Hendrix.
    Mr.  Hendrix. I will just say that the experience that we 
have with homeless veterans, and it is a tragedy that anyone is 
homeless, let alone our veterans, is that Housing First is not 
just housing alone, that we do need those kinds of support 
services that veterans do rely upon. Those are lessons for the 
rest of us as we deal with the homelessness crisis across 
America.
    Mr.  Lawson. Okay. And I am going to try to get this 
question in quickly. My wife volunteers at least once or twice 
a month to go to the Kearney Center to feed the homeless, from 
the church, the Episcopal Church. And you mentioned earlier, 
and I hope I can get this in, that some of the churches and so 
forth want to help with the homeless crisis, but they are 
limited. Can you explain what that means? Their ability to 
build places only or facilities--
    Mr.  Hendrix. I was referencing San Diego, how San Diego 
was, until very recently, not able to do so. If you are a 
church and you wanted to build housing on vacant parking lots 
that sit empty from Monday to Saturday, that you couldn't build 
new housing. You couldn't build housing for those who are 
homeless or those who are low-income. And now in San Diego, 
with some reforms from Mayor Faulconer, you can.
    Mr.  Lawson. Okay. Madam Chairwoman, I yield back.
    Chairwoman  Waters. Thank you very much. I want to thank 
our panel of witnesses for your presence here today. I have 
already been told by one member of this committee that this is 
the most important, most impactful committee hearing that he 
has experienced since he has been here. All of our members have 
been absolutely, I think, inspired to work a little bit harder 
to do a little bit more to be better advocates. So, I am very 
pleased.
    Mr. Williams, I want to thank you, in particular. I know 
that you have to go to work this evening, and you have been 
here all day. I also know that the children don't have beds, 
that they are sleeping on the floor. Now, I have to do it 
legally, but I will find a way to get the beds, okay? Thank you 
very much for your participation. All of you have been 
absolutely stellar in your presentations here today.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
  With that, this hearing is adjourned.
  [Whereupon, at 2:23 p.m., the hearing was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
